<html>
<title> - THE NEED FOR ADDITIONAL BORDER PATROL AT THE NORTHERN AND SOUTHERN BORDERS</title>
<body><pre>[Senate Hearing 106-441]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 106-441

 
  THE NEED FOR ADDITIONAL BORDER PATROL AT THE NORTHERN AND SOUTHERN 
                                BORDERS

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON IMMIGRATION

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   on

  THE NEED FOR ADDITIONAL BORDER PATROL AT THE NORTHERN AND SOUTHERN 
 BORDERS OF THE UNITED STATES TO FURTHER DETER ILLEGAL IMMIGRATION AND 
                             DRUG SMUGGLING

                               __________

                             APRIL 27, 1999

                               __________

                          Serial No. J-106-20

                               __________

                               <SNOWFLAKE>

                    U.S. GOVERNMENT PRINTING OFFICE
63-522 CC                   WASHINGTON : 2000



         Printed for the use of the Committee on the Judiciary



                   SENATE COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman

STROM THURMOND, South Carolina       PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
ARLEN SPECTER, Pennsylvania          JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     HERBERT KOHL, Wisconsin
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JOHN ASHCROFT, Missouri              RUSSELL D. FEINGOLD, Wisconsin
SPENCER ABRAHAM, Michigan            ROBERT G. TORRICELLI, New Jersey
JEFF SESSIONS, Alabama               CHARLES E. SCHUMER, New York
BOB SMITH, New Hampshire

             Manus Cooney, Chief Counsel and Staff Director

                 Bruce A. Cohen, Minority Chief Counsel

                                 ______

                      Subcommittee on Immigration

                  SPENCER ABRAHAM, Michigan, Chairman

ARLEN SPECTER, Pennsylvania          EDWARD M. KENNEDY, Massachusetts
CHARLES E. GRASSLEY, Iowa            DIANNE FEINSTEIN, California
JON KYL, Arizona                     CHARLES E. SCHUMER, New York

                   Lee Liberman Otis,  Chief Counsel

                 Melody Barnes, Minority Chief Counsel

                                  (ii)



                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Abraham, Hon. Spencer, U.S. Senator from the State of Michigan...     1
Grassley, Hon. Charles E., U.S. Senator from the State of Iowa...     4
Kyl, Hon. Jon, U.S. Senator from the State of Arizona............  4, 6
Feinstein, Hon. Dianne, U.S. Senator from the State of California    11
Schumer, Hon. Charles E., U.S. Senator from the State of New York    21

                    CHRONOLOGICAL LIST OF WITNESSES

Statement of Gus de la Vina, chief, U.S. Border Patrol, 
  Immigration and Naturalization Service, Washington, DC.........    12
Panel consisting of Ron Sanders, chief, Chief Patrol Agents 
  Association, U.S. Border Patrol, Tucson, AZ; Hon. Gail Griffin, 
  State Representative, Sierra Vista, AZ; and Robert Lindemann, 
  Senior Patrol Agent, Detroit Sector, and Union Steward, 
  National Border Patrol Council, Detroit, MI....................    27

                ALPHABETICAL LIST AND MATERIAL SUBMITTED

Griffin, Ms. Gail:
    Testimony....................................................    30
    Prepared statement...........................................    32
Kyl, Hon. Jon: Article from the Los Angeles Times: Migrants, 
  Border Town Feel the Squeeze, dated Apr. 26, 1999..............     8
Lindemann, Robert E.:
    Testimony....................................................    33
    Prepared statement...........................................    34
Sanders, Ron:
    Testimony....................................................    27
    Prepared statement...........................................    29
de la Vina, Gus:
    Testimony....................................................    12
    Prepared statement...........................................    14

                                APPENDIX
                 Additional Submissions for the Record

Letter to Senator Abraham and Committee Members, from Les 
  Thompson, Chairman, Cochise County, AZ, Board of Supervisors, 
  dated Apr. 26, 1999............................................    43
Public Law 104-208--Sept. 30, 1996: Title I, Subtitle A--Improved 
  Enforcement at the Border, from 1996 Immigration Act (IRIIRA)..    45
Article by Michelle Mittelstadt, Associated Press: Border Patrol 
  Won't Make Goal of Adding 1,000 Agents This Year, dated Apr. 
  27, 1999.......................................................    46
Various Articles to the Editor...................................    49



  THE NEED FOR ADDITIONAL BORDER PATROL AT THE NORTHERN AND SOUTHERN 
                                BORDERS

                              ----------                              


                        TUESDAY, APRIL 27, 1999

                               U.S. Senate,
                       Subcommittee on Immigration,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Spencer 
Abraham (chairman of the subcommittee) presiding.
    Also present: Senators Grassley, Kyl, and Schumer.

OPENING STATEMENT OF HON. SPENCER ABRAHAM, A U.S. SENATOR FROM 
                     THE STATE OF MICHIGAN

    Senator Abraham. We will begin the hearing, and I welcome 
you all to this hearing on the U.S. Border Patrol and the need 
for additional personnel.
    I apologize for our arrival time here. Senator Kyl and I 
were on the floor, as were most of the members of the Senate, 
to observe a moment of silence in tribute to and in remembrance 
of the students and teacher who were killed in Littleton, CO 
last week. We appreciate everybody's patience with us today, 
and I would just like to begin with a brief opening statement. 
Senator Kyl has a statement, I believe, as well, and if we are 
joined by other members, we will certainly provide them the 
opportunity to comment further.
    Welcome to today's Senate Immigration Subcommittee hearing 
on the need for additional border patrol at the northern and 
southern borders. Illegal immigration and drug smuggling are 
serious problems in America. Our U.S. Border Patrol is the 
first line of defense to deter illegal entry. The job it does 
is critical.
    In 1998, the Border Patrol made more than 1.5 million 
apprehensions. It also made more than 6,600 drug seizures that 
year, including 871,417 pounds of marijuana and 22,675 pounds 
of cocaine. Despite these efforts, according to the INS, there 
still are an estimated 250,000 or more new illegal immigrants 
in the United States each year. The majority come across our 
borders surreptitiously or otherwise. This is an intolerably 
high amount and I am committed, as I know this subcommittee is 
committed to provide the support required to bring it down.
    In border communities and States like Arizona, Texas, and 
California, the impact of illegal immigration is felt more 
severely than anywhere else in the United States. One 
manifestation of this impact: people are entering the country 
illegally by racing across privately-owned property, sometimes 
in large numbers. The property owners have been seeking help 
from the Federal Government to prevent this kind of 
trespassing, but to no avail. Like many other Americans, they 
want the Federal Government to do more to stop this illegal 
conduct, and they want that help as soon as possible.
    This committee has tried to help, but in my judgment at 
least, the Administration has not done its part. Despite a 
specific mandate from this committee this year, the President 
has failed to request funding for a single additional border 
patrol agent, and in my judgment that is wrong.
    Three years ago, Senator Kyl took the lead, and I supported 
his efforts through an amendment to the 1996 Immigration Bill 
to include a provision that mandated a net increase of 1,000 
new border patrol agents a year in each of the following fiscal 
years through fiscal 2001. But in only one of those years, 
fiscal year 1999, did the President's budget even ask for the 
funds necessary to hire the required agents.
    In response to that request, this year's appropriations 
bill includes enough money for 1,000 new net hires. 
Unfortunately, I am advised, that the INS apparently will not 
be able to meet this objective, this 1,000 net new agent mark 
by the end of the year. Furthermore, to repeat, the President's 
budget for the upcoming year, fiscal year 2000, does not 
request funds for a single new border patrol agent.
    We will hear today from witnesses who will tell us what is 
happening on our southern border and the substantial problems 
people are confronting there every day. That is just one reason 
to increase the border patrol. The lack of adequate manpower is 
not a southern border problem alone. In Detroit, fewer than 20 
border patrol agents in the Detroit sector are expected to be 
responsible for four large midwestern States: Michigan, Ohio, 
Indiana, and Illinois, an area covering hundreds of miles of 
border. This small number of border patrol agents also must 
assist INS investigators in responding to local law enforcement 
requests in these four States. In addition, overall there are 
fewer than 300 border patrol agents responsible for the nearly 
4,000-mile-long border the United States shares with Canada.
    I appreciate that this year the INS has announced that, for 
the first time in a decade, it will add an additional seven 
agents in Detroit as part of an increase of 22 agents at the 
northern border. It remains to be seen whether these agents 
will, in fact, materialize in light of the INS's difficulties 
in meeting the recruitment goals. However, even if they do, 
they will not even fully make up for the agents Detroit has 
lost over the last 10 years.
    In any event, the small number of new agents is just a 
start, and in my judgment, just a drop in the bucket. I do not 
see how we can possibly expect our border patrol agents, no 
matter how hardworking they may be, to cover areas this immense 
with so little manpower. This is like having two referees for 
the entire National Football League or one ticket taker for the 
entire University of Michigan football stadium.
    Simply put, the time has come to add more border patrol 
agents. The time has also come to allocate a significant net 
increase in the number of agents on the northern border. 
Moreover, the additional agents at both borders must come with 
the additional vehicles and equipment essential for these 
agents to perform their vital functions. Attracting and 
retaining border patrol agents, particularly in a strong 
economy, is a challenge, and I understand that. The committee 
is interested in hearing more about the nature and the causes 
of difficulties with both.
    I have heard reports of attrition rates of border patrol 
agents that are very alarming. Particularly in law enforcement 
where men and women are expected to confront dangerous 
situations, we do not want to lose officers just as they gain 
more experience and are at the peak of their performance. If 
that is where the problem lies, then it is time to solve it.
    So today I am calling on the INS and the Office of 
Personnel Management to work together to establish a new salary 
structure for border patrol agents that is more comparable with 
those of other law enforcement agencies at the Federal level. 
There is ample support in Congress in providing the resources 
needed to hire more border patrol agents, and I have called 
this hearing today to find out what else we can do.
    But even a very supportive Congress cannot force this 
approach on an unwilling administration. We need cooperation 
and solutions. With the President's cooperation, I am confident 
that we can recruit, hire, and retain the border patrol agents 
necessary to provide a much stronger deterrent to illegal 
immigration and the importation of illegal drugs.
    Finally, let me just say that this is the subcommittee's 
first hearing this session to address border patrol hiring 
issues. I know I speak for many of my colleagues when I say 
that unless Congress begins to receive better answers and an 
indication of more progress from the Administration on this 
front, I do not think it will be our last. In fact, I can 
guarantee it will not be our last.
    And I say all of this as a prelude to our first panel, and 
I want to make it very clear that I know I speak for the other 
members here that this subcommittee has great confidence in the 
men and women in the border patrol, from the top on down. The 
frustration we have is the problems continue to occur, as the 
incidents continue to occur, and as the constituent complaints 
continue to increase; and as Congress continues to try to do 
what we believe are the required steps for us to take to 
address the problem, it is extraordinarily frustrating to feel 
that we are not making any progress. And so what we are trying 
to do today is to figure exactly why we cannot address this and 
what we need to do beyond what has already happened in order to 
do so.
    So I hope we can have a good start here today and find out 
from both of our panels exactly what the nature of the problems 
are that we confront, as well as where we go from here, and 
certainly, as I said, this does not have to be by any means the 
last hearing on this topic if it does not prove to fully 
address or satisfy the concerns that we have.
    And so with that said, let me turn--I see we have been 
joined also by Senator Grassley. So as the next ranking member, 
I will turn to you if you would like the make an opening 
statement, and then we will go to Senator Kyl, who I know has a 
statement.

STATEMENT OF HON. CHARLES E. GRASSLEY, A U.S. SENATOR FROM THE 
                         STATE OF IOWA

    Senator Grassley. I do not have a formal opening statement, 
and my State obviously is not on the border, as anybody who 
knows American geography can tell you. But what the border 
patrol does on the border affects who and what gets to my 
State, so I am interested in this hearing.
    And from that standpoint, I point out that methamphetamine 
is a growing epidemic in areas of the midwest. Most of this 
drug is coming from Mexico, although too much of it is also 
produced in very dangerous homemade labs in the respective 
States. It has been a little difficult for us to get a handle 
on how and to what extent the cartels use illegal aliens to 
transport these drugs. I would like to get some idea from this 
hearing of how this process works, how the border patrol is 
involved in stopping it, and what if anything more needs to be 
done on our part to stop this illegal activity.
    And then I would point to the fact that I had a hearing in 
the International Drug Caucus, which I chair, regarding 
corruption on the border, and Commissioner Meissner was very 
responsive in attending that hearing. The Border Patrol numbers 
have doubled in the last 4 years, and there is a major problem 
that was brought out in our hearing, that many new agents have 
had to be absorbed and promoted in such a short time that there 
are many people in posts of authority who have relatively 
little experience; and she was speaking obviously about INS, 
but we have also had a lot within the Border Patrol to absorb, 
and how is the agency dealing with this problem of lack of 
experience and training in supervisory positions.
    So those might be some things that can be addressed at this 
hearing. Thank you.
    Senator Abraham. Thank you very much, Senator Grassley.
    Senator Kyl has been taking the lead on many of these 
issues for some time on the subcommittee and in the Senate in 
particular. As I indicated, I was the chief sponsor of the 
amendments which included in the 1996 legislation to increase 
the Border Patrol, and so I know he has considerable interest 
in this hearing and has been a major reason why we are here 
today, because we have been talking about it, and he has 
certainly been urging this committee to focus on these issues.
    So I want the thank Senator Kyl for the leadership he has 
had on this and turn to him now for his statement.

  STATEMENT OF HON. JON KYL, A U.S. SENATOR FROM THE STATE OF 
                            ARIZONA

    Senator Kyl. Thank you. Mr. Chairman, I very much 
appreciate your willingness to hold this hearing to highlight 
the problems. I would like to ask unanimous consent that my 
statement be presented in the record, since I will deviate from 
that.
    Senator Abraham. Without objection.
    Senator Kyl. As well as a recent article from the Los 
Angeles Times about Douglas, AZ. It is entitled ``Migrant 
Border Towns Feel the Squeeze'', and it describes the situation 
in some detail; and a member of our own state legislature, Gail 
Griffin, will be testifying more about that in a moment.
    Also, to quickly acknowledge what you said, our concern 
about what is happening on the border has nothing to do with 
the quality of our Border Patrol and the fine agents and the 
other officials that assist on the border. They do a tremendous 
job under very difficult circumstances, and I know that they 
all appreciate the fact that they have the support of the 
Congress.
    Let me quickly reiterate what you said, Mr. Chairman, about 
the amendment that you and I and Senator Feinstein sponsored 
that was added to the Immigration Bill of 1996 which called 
for--which mandates the addition of 1,000 agents for 5 years to 
try to build our strength up to the level that we need. 
President Clinton signed the bill and yet has requested the 
funding for the agents only once since the bill went into 
effect, and the current budget, as you point out, did not 
propose for any funding for increase either in Customs Service 
agents or Border Patrol agents. So it is going to be very 
difficult for us to find the funding in this year's bill to 
appropriate the money for the training of those agents.
    In a recent Appropriations Committee hearing, INS 
Commissioner Doris Meissner confirmed that her original fiscal 
year 2000 budget request did, in fact, include the funding for 
the 1,000 agents, but the funding was rejected by the 
President's budgeting office. Our Nation's drug czar, Barry 
McCaffrey, has often stated the need for 20,000 agents 
nationwide. In Tucson, AZ, Sector Chief Ron Sanders, who will 
testify today that the Chiefs Association supports 20,000 
agents nationwide, the same as Barry McCaffrey.
    A newly released study by the University of Texas Center 
for U.S.-Mexico Research said that 16,133 agents are needed on 
the southwestern border to effectively curtail illegal 
immigration and drug smuggling. That is just on the 
southwestern border. Now we have currently about half that 
many. Board Patrol strength is approximately 8,000 agents, so 
we have a long way to go.
    The situation with respect to the U.S. Border Patrol is 
that it is responsible for 93 percent of INS's illegal 
immigrant apprehensions, and with respect to drugs coming into 
the United States in the 1998 fiscal year, the border patrol 
was responsible for 51 percent of total marijuana seized on the 
border, 36 percent of cocaine seized, and 25 percent of 
methamphetamine. Incidently, last month 28,000 pounds of 
marijuana was seized, a record, just one month, just in the 
Tucson sector alone.
    The State Department estimates that 60 percent of the 
cocaine entering the United States enters through the southwest 
border, and an estimated 16,000 lives are lost every year in 
the United States as a result of illegal drug use.
    Mr. Chairman, two of the witnesses today, Ron Sanders and 
Gail Griffin, are going to testify about conditions on the 
Arizona border, and my statement here contains some material 
relative to that, but let me just put it in fairly specific 
terms. Last month, in just the Tucson sector on the border in 
Arizona, 60,000 apprehensions. Now, that is 2,000 a day. Those 
are apprehensions. The rule of thumb is at least 2 or 3 times 
as many people cross without being apprehended.
    Now, let us just stop and think about that for a moment. 
Here is one sector in one State on the border. Two thousand 
people every day are apprehended. Think about that. And maybe 2 
or 3 times that many are not apprehended. This Los Angeles 
Times article notes that 1 day last month 600 illegal 
immigrants massed and started to cross the border all at once 
in broad daylight. Fortunately, the border patrol agents were 
able to apprehend some and disperse the rest.
    But I do not think people in the Congress who are not 
acquainted with border issues can fully appreciate the assault 
on the community and on the families and on the schools and the 
ranches nearby that this kind of challenge presents. It is not 
being handled. It cannot be handled with the kind of manpower 
we see.
    As a result, what is happening? People are taking matters 
into their own hands. Ranchers are rounding up these suspected 
illegal aliens. Calls for putting the National Guard on the 
border are increasing. All of this is not the way to handle the 
problem, obviously. We need to hire the agents, as you pointed 
out.
    I am very hopeful that this hearing will shed light here in 
Washington on the problems that the lack of protection for our 
borders has caused in our communities. Commissioner Meissner 
testified that now is not the time to beef up manpower on the 
border, that the INS needs to take a breather. Well, Mr. 
Chairman, when 2,000 illegal aliens are apprehended every day 
in just one sector, and when 600 illegal aliens attempt to 
cross the border in mass in broad daylight, it is clear that no 
one at the border is taking a breather. The Federal Government 
cannot afford to take a breather either.
    Thank you very much for holding this hearing.
    [The prepared statements and article of Senators Kyl and 
Feinstein follow:]

                 Prepared Statement of Senator Jon Kyl

    Mr. Chairman: I appreciate your holding this hearing today to focus 
on the need for additional Border Patrol resources on our nation's 
borders, and particularly in Arizona. I am particularly grateful that 
the subcommittee will devote some time to the situation currently 
facing the citizens of southern Arizona. Three years ago my proposal, 
cosponsored by Senators Abraham and Feinstein, to add 1,000 new Border 
Patrol agents to our nation's borders each year between 1997 and 2001 
was unanimously accepted by the Senate Judiciary Committee and became 
part of the Immigration Reform Act of 1996. President Clinton signed 
this landmark legislation into law, yet he has requested the full 1,000 
agents only once since then, and his fiscal year 2000 budget does not 
propose any increase in Border Patrol agents. As a result, it will be 
harder than ever to find the funding this year to help Congress comply 
with the law.
    The need for 1,000 agents in fiscal year 2000 has been established 
by the Immigration and Naturalization Service. In a recent 
Appropriations Committee hearing, INS Commissioner Doris Meissner 
confirmed that her initial fiscal year 2000 budget request did include 
funding for 1,000 agents, but the funding was rejected, by the 
President's budgeting office. Our nation's drug czar, Barry McCaffrey, 
has often stated the need for 20,000 agents nationwide. Tucson, 
Arizona, Sector Chief Ron Sanders will testify today that the Chiefs 
Association supports 20,000 agents nationwide. A newly released study 
by the University of Texas Center for U.S.-Mexico Research said that 
16,133 agents are needed on the southwestern border to effectively 
curtail illegal immigration and drug smuggling. Current Border Patrol 
strength is approximately 8,000 agents.
    An increase in manpower at our borders is important for the entire 
nation, not just the southwestern states. The U.S. Border Patrol is 
responsible for fully 93 percent of the INS' illegal immigrant 
apprehensions.
    Regarding the importation of drugs into the United States, in 
fiscal year 1998, the Border Patrol was responsible for 51 percent of 
total marijuana seized on the border, 36 percent of the cocaine seized, 
and 25 percent of the methamphetamine seized. The State Department 
estimates that 60 percent of the cocaine entering the United States 
enters through the Southwest border, and an estimated 16,000 lives are 
lost every year in the U.S. as a result of illegal drug use.
    Increasing the Border Patrol is also critical to the state of 
Arizona. Our two Arizona witnesses will provide testimony about 
Arizona's increasingly difficult border situation in Cochise County. 
Arizona Representative Gail Griffin will provide details about how 
failing to secure the border has harmed Arizona. This reminds me of the 
situation that erupted in Santa Cruz County, Arizona, in and around 
Nogales, directly south of Tucson, in late 1993. When that occurred, I 
wrote the U.S. Attorney General 10 times, and met with her, to detail 
the need for additional resources for the Tucson sector. After months 
of letters and meetings, the administration started to send additional 
resources to Nogales, where the bulk of the illegal crossings were 
taking place. And positive results were quickly felt.
    Our current situation in Arizona invokes Yogi Berra's ``deja vu all 
over again''--I first wrote Attorney General Reno way back in 1996 to 
let her know that the situation in Douglas, Arizona was going to become 
much like the Nogales situation. I also wrote Commissioner Meissner in 
early 1998 about conditions in Douglas, and to request additional 
resources, including funding for a new Border Patrol station and for an 
extension of the recently completed fence there. I never received a 
response from the INS. Attached to my testimony today is a recent 
article from the Los Angeles Times that describes the situation in 
Douglas.
    Mr. Chairman, I am hopeful that this hearing will shed light here 
in Washington on the problems that a lack of protection for our borders 
has caused in our border communities. Commissioner Meissner testified 
that now is not the time to beef up manpower on the border--that the 
INS ``needs to take a breather.'' When 600 illegal aliens attempt to 
cross the border together in broad daylight, it is clear that no one at 
the border is taking a breather. The federal government cannot afford 
to take a breather either. Thank you.

[GRAPHIC] [TIFF OMITTED] T3522.001

[GRAPHIC] [TIFF OMITTED] T3522.002

[GRAPHIC] [TIFF OMITTED] T3522.003

             Prepared Statement of Senator Dianne Feinstein

    I thank the Chairman for holding this hearing today. Adequate 
staffing of Border Patrol remains a pivotal, ongoing need on the 
Southwestern border of the United States. The Border Patrol has 
multiple, demanding responsibilities including reducing the influx of 
illegal narcotics into our country. We need to make sure that the 
Border Patrol has adequate personnel to do this critical job right.
    The President's fiscal year 2000 budget increases funding for 
border patrol by 14 percent from $917 million in fiscal year 1999 to $1 
billion in fiscal year 2000, of which $50 million would be allocated 
for additional enforcement technology at the border. However, I am 
dismayed that there is no funding for the 1,000 new border patrol 
agents authorized under the 1996 Immigration Act (IRIIRA).
    IRIIRA requires the hiring of 1,000 new Border Patrol agents each 
year between 1997 and 2001. If the President's proposal remains 
unchanged, this will be the first year that the Federal government has 
shirked its responsibility under IRIIRA.
    Without adequate staffing at the Southwest border, we will continue 
to make little headway against the flow of drugs into our country.
    Fifty to 70 percent of illegal drugs enter the U.S. through the 
Southwest border. In fact, narcotics intelligence officials continue to 
warn that an estimated 5 to 7 tons of cocaine enter this country every 
single day of the year. Simply put, the Southwest border is a ``main-
street'' thoroughfare for international narcotics trafficking.
    Barry McCaffrey, the Director of the Office of National Drug Patrol 
Policy, says the current level of Border Patrol personnel is 
``completely'' inadequate to patrol the 2000 miles of the U.S. border 
with Mexico. A study by the Population Research Center at the 
University of Texas supports General McCaffrey's position. The study 
estimates that 16,133 Border Patrol Agents are needed to Patrol the 
1,782 miles along the U.S.-Mexico border.
    Right now, we have only 9,000 border patrol agents. Of even more 
concern, the Border Patrol is losing excessive numbers of officers 
through attrition. In just the San Diego region, the Border Patrol has 
lost 163 patrol officers since the beginning of the fiscal year through 
attrition. This loss, coupled with the practice of transferring agents 
from San Diego to help reinforce other border sectors is detrimental to 
our overall border enforcement operations.
    The situation in the El Centro sector east of San Diego, is 
particularly critical. The area is second in the nation in terms of 
illegal activity but ranked seventh in resources. There are 445 
officers assigned to the area now, with an immediate need for another 
423 to help cover the 76 miles of border the sector is responsible for. 
We need to bolster the numbers of our border Patrol, and keep the ones 
already serving.
    A shortage of vehicles is also hampering the agents' enforcement 
efforts. At some stations, agents must wait for agents in the field to 
drive in with their vehicles so they can relieve them. The wait is 
sometimes up to two hours. That means that part of our border is 
unprotected, which again is counterproductive. When we assign 
additional personnel to an area, they must be given the equipment they 
need to do their job.
    In California, we are preventing more drugs from crossing the 
border, but these increased efforts have placed an extraordinary burden 
on border personnel.
    For example, federal officers at California's five southern border 
stations seized over 188 tons of drugs valued in excess of $308 million 
during fiscal year 1998 for an increase of 44 percent over the previous 
year.
    INS and Customs inspectors made 5,127 seizures totaling 376,325 
pounds of narcotics at the ports of entry compared to 3,356 seizures 
totaling 261,111 pounds the previous year, according to Customs 
sources. Meth seizures were up 93 percent from fiscal year 1997 and the 
volume of meth seized was up by a staggering 342 percent.
    Despite this overwhelming tide of enforcement activity, the 
Administration's budget requests only 80 additional inspectors and 32 
additional investigative agents.
    I am committed to bolstering resources for our border Patrol 
agencies so they can do their work effectively. I look forward to 
hearing the testimony of the witnesses.

    Senator Abraham. Thank you, Senator. We will now begin with 
our first panel. For all the witnesses, I would mention that we 
have our little clock here. The green indicates the beginning 
of the session. I know that people bring longer statements, and 
we will be happy to enter full statements into the record, but 
we like to keep these statements to approximately 5 minutes. 
And so the orange indicates 1 minute left, and the red 
indicates time is up. We are usually pretty flexible with 
respect to concluding thoughts and sections of speeches at that 
point, but I hope that we can at least stay relatively close to 
the time today.
    Our first witness will be Gus de la Vina who is chief of 
the U.S. Border Patrol. And I want to stress again my points, 
and I know the other Senators share them, with respect to the 
pride we have in the Border Patrol and the men and women who 
serve in it from the top on down.Our purpose here today is to 
figure out how to give the Border Patrol the help it needs and 
the support it needs to get the job done that we all want to 
see accomplished.
    So we welcome you here today and appreciate your being with 
us to testify.

    STATEMENT OF GUS DE LA VINA, CHIEF, U.S. BORDER PATROL, 
     IMMIGRATION AND NATURALIZATION SERVICE, WASHINGTON, DC

    Mr. de la Vina. Thank you very much. I have a prepared 
statement.
    Good afternoon, Mr. Chairman and members of the 
subcommittee. I am pleased to have the opportunity today to 
discuss with you the Immigration Naturalization Service's 
efforts to control the Nation's borders.
    I would like to begin by assuring you that the INS 
commitment to effective border management remains unwavering. 
With the strong support of Congress, we have more than doubled 
the number of border patrol agents to 8,000 since fiscal year 
1993. This unparalleled growth in personnel has been 
accompanied by record increases in equipment and technology.
    To ensure that these unprecedented resources are deployed 
in the most efficient and effective manner possible, we 
developed the current comprehensive strategies that establish 
enforcement priorities. As a result, we have strengthened 
significantly the enforcement of the Nation's immigration laws 
at our border. Nowhere else is the success of the strategic 
approach more evident than along the southwest border.
    In 1994, Attorney General Reno and Commissioner Meissner 
announced a multi-year strategy to strengthen enforcement and 
to shut down the traditional illegal immigration corridors 
along the southwest border. By strategically deploying new 
personnel in one or two areas each year and backing them up 
with equipment and infrastructure improvements, INS has 
achieved considerable success in restoring integrity and safety 
to the 2000-mile frontier.
    We have been implementing our strategy through well-laid-
out, multi-year operations such as Operation Gatekeeper and Rio 
Grande. The initial phase of these operations typically result 
in an increase in apprehensions reflecting the deployment of 
more agents and in enhanced technology, however as the 
deterrent effect takes hold, the number of apprehensions 
declines, and perhaps most important for those who live in 
border communities, so do local crimes.
    We can continue to concentrate resources on critical 
operational areas of the southwest border, and we are adjusting 
our deployments to reflect shifts in illegal crossing patterns. 
As part of our expansion of Operation Safeguard, for example, 
we detailed 45 Border Patrol agents to the Nogales area in 
January and more detail agents are being added. The Tucson 
sector will receive 350 additional out of the 1,000 funded this 
year.
    The infusion of agents in Arizona and elsewhere is being 
backed by force-multiplying equipment and technology including 
the ISIS, the Integrated Surveillance Intelligence System. By 
integrating day and night vision cameras with underground 
sensors, this system allows a single agent in a central command 
center to monitor vast terrain. Currently ISIS is being 
installed in Nogales, El Paso, and Laredo, and we plan to 
deploy 58 additional ISIS sites this year, including some along 
the northern border.
    Even with the most sophisticated high-tech tools, however, 
you cannot build successful enforcement strategies unless you 
have a solid foundation of high caliber personnel. The Border 
Patrol has been fortunate in recent years to attract some of 
our Nation's best and brightest, but it is an increasingly 
difficult task. Over the past 3 years, we hired more than 5,000 
new agents, which taking attrition into consideration, has 
resulted in a net gain of more than 3,000 agents. In fiscal 
year 1998 alone, we hired close to 2,000 agents, more than 4 
times the fiscal year 1994 total.
    We have been able to meet and even exceed our hiring goals, 
even as we raise recruitment standards and strengthen training 
programs. The extremely high standards for Border Patrol 
recruits are reflected in the fact that last year only 4 
percent of the some 49,000 people who applied were hired. This 
year we anticipate the need to hire 2,000 agents to meet our 
goal of adding 1,000 agents to our staff. Midway through fiscal 
year 1999, we now estimate that we will fall short of this 
goal, but not for a lack of effort.
    The greatest barrier we face is a strong economy with a low 
unemployment rate that affords applicants job opportunities. 
The INS is not the only agency experiencing difficulty meeting 
the staffing goals. We understand, for example, that some or 
all of military services are having trouble meeting their 
recruitment objectives.
    In response to the tight labor market, we have intensified 
our recruitment. Traditionally, we have drawn most of our 
agents for our southwest border States. This year, we have 
hired an advertising firm to increase awareness of Border 
Patrol job opportunities in the rest of the United States. As 
part of our recruiting blitz, we will participate in about 200 
job fairs, community festivals, and other events. We are also 
expanding our work on college campuses, targeting a 120-school 
base on student demographic and on law enforcement curriculum.
    Most of the effect on the recruiters are current Border 
Patrol agents. That is why I have committed up to 200 agents to 
outreach and recruitment activities on college campuses and 
military installations. Our agents are also actively involved 
in deployment of advertising public service announcements. We 
are deeply committed to fulfilling our recruitment needs.
    There is one thing we will not do, sacrifice quality. We 
are intent on maintaining recruiting and training standards 
that are amongst the highest in law enforcement, and with you 
and your continued support, I am confident that we will be able 
to do so.
    Thank you, Mr. Chairman. I would be happy to answer any 
questions that you or the members of the subcommittee may have.
    [The prepared statement of Mr. de la Vina follows:]

                  Prepared Statement of Gus de la Vina

    Mr. Chairman, members of the subcommittee, thank you for the 
opportunity to appear before you today to discuss Border Patrol 
operations, hiring, recruitment and retention. The Border Patrol is the 
uniformed enforcement arm of the U.S. Department of Justice, 
Immigration and Naturalization Service responsible for the prevention, 
detection, and apprehension of those illegally entering the United 
States, as well as intercepting drug smugglers between the legal ports-
of-entry. With your support, the Border Patrol has, since 1993, more 
than doubled in size and received record increases in equipment and 
technology. We have supported these unprecedented resources with 
coherent strategies that ensure our resources are deployed in the most 
efficient and effective manner possible. As a result of these efforts, 
we have strengthened significantly the enforcement of immigration law 
at our borders.
                           border management
    In the area of border management, we have achieved more in the past 
five years than had been accomplished in decades. Nowhere else is the 
success of our strategic approach to enforcement more evident than 
along the Southwest border. Before 1993, there was no comprehensive 
plan for controlling this 2,000-mile frontier--and it showed. The 
number of Border Patrol agents was insufficient to get the job done, 
and those we did have were ill-equipped. As a result, illegal 
immigrants came across the border undeterred, as did illicit drugs.
    To bring integrity and safety to the Southwest border, we developed 
a comprehensive, multi-year Southwest border strategy in 1994. Its goal 
is clear: a border that works; one that deters illegal migration, drug 
trafficking, and alien smuggling, while facilitating legal traffic 
through the ports-of-entry. Simply stated, the strategy is to regain 
control of the border by focusing new resources on those areas where 
most of the illegal crossings occur. To meet this goal, we initiated 
unparalleled growth in personnel and resources. Since fiscal year 1993, 
we have more than doubled the number of Border Patrol agents to 
approximately 8,000, as of February 13, 1999, with the vast majority 
stationed along the Southwest border. To reach this level, we hired 
1,900 agents in fiscal year 1998 alone and trained them at facilities 
in Charleston, SC and Glynco, GA. These new agents have been backed up 
by infrared scopes, underground sensors and other force-multiplying 
equipment and technology, as well as by infrastructure improvements.
    As the Border Patrol Strategic Plan has matured, the Border 
Patrol's strategic efforts have been directed to areas of operational 
focus along the Southwest border. Our border management efforts from 
1993 to 1996 concentrated on El Paso, Texas and western San Diego 
county in California. In 1997, we began to expand our focus to eastern 
San Diego county and Imperial county, south Texas, Arizona, and New 
Mexico. ``Operation Rio Grande,'' launched in August 1997 in 
Brownsville, Texas, was a special multi-year operation designed to gain 
and maintain control of specific border areas through a combination of 
new technology and additional staffing. At the start of the operation, 
69 Border Patrol agents were detailed to Brownsville in August of 1997 
to intensify existing enforcement efforts. In September 1997, we began 
deploying special response teams to those ports-of-entry where we 
expected increased numbers of fraudulent entry attempts. In fiscal year 
1998, 260 new Border Patrol agents were added to McAllen Sector and 205 
to Laredo Sector. An important feature of ``Operation Rio Grande'' has 
been the integration of a broad range of INS enforcement operations. 
Border Patrol agents, Inspectors at ports-of-entry, Investigators, 
Intelligence analysts, and Detention and Deportation Officers are all 
contributing to the operation. We are seeing lower apprehension and 
reduced local crime rates as a result of the operation, indicating the 
effectiveness of our deterrence strategy. The crime rate in Brownsville 
alone dropped by more than 20 percent in fiscal year 1998, and the 
overall apprehensions for McAllen Sector decreased by 17 percent 
compared to the previous year.
    In fiscal year 1998, INS extended ``Operation Gatekeeper'' through 
the El Centro initiative to address changes in smuggling and illegal 
crossings occurring along the border in El Centro Sector. The 
initiative includes detailing additional agents to the immediate border 
areas of Calexico and El Centro, California, to deter alien smuggling 
operations in those areas. The El Centro Sector has been allocated an 
additional 78 new agents from the fiscal year 1999 budget to bolster 
the efforts of the 134 new agents deployed in fiscal year 1998. As an 
indication of the positive effect on border control already 
attributable to this initiative, during the first quarter of fiscal 
year 1999, the sector experienced its first quarterly drop in 
apprehensions after four straight years of continuous increases. While 
the rate of apprehensions is still fluctuating up and down, this is to 
be expected in the early stages of improved border control in any area. 
But it is clear that the initiative is having an impact, in both 
deterrence and control.
    ``Operation Safeguard'' encompasses the area of the Tucson Sector. 
Tucson Sector was the busiest sector on the Southwest land border in 
fiscal year 1998, and that trend continued as apprehensions increased 
by 21,240 or 41 percent in the first quarter of fiscal year 1999. Some 
part of the increase in apprehensions is attributable to an improved 
enforcement capability made possible by adding agents, better equipment 
and enforcement infrastructure to the Tucson Sector. Once the 350 
agents allocated in the fiscal year 1999 budget are on-board in Tucson, 
1,087 agents will have been added to the Tucson Sector since 1994.
    In the areas where we have concentrated our efforts, we have 
demonstrated that deterrence can work even in the most difficult 
conditions. We continue to concentrate resources on critical 
operational areas of the Southwest border, in support of this strategy. 
Once we gain control of the Southwest border, the strategy's emphasis 
will broaden to include the coastal and Northern border sectors.
    There is no doubt that agent staffing and other enforcement 
resources are a critical part of gaining control of the border. The 
Border Patrol is developing a management tool, the Resource and 
Effectiveness Model (REM), to assist planners in making decisions 
regarding allocation of resources to the Border Patrol Sectors and 
Border Patrol stations, and to determine the optimal mix of agents and 
technology. The model does not provide the definitive number of agents 
needed, but it does provide planners with important information 
regarding the appropriate mix of resources given varying sets of 
conditions.
    The latest revised REM (software/equipment) is now being deployed 
to all Sectors. Sectors are scheduled to complete entering Sector-
specific information (such as number of agents, vehicles, 
apprehensions, local roads, geography, topography, weather) into the 
Sector REM database this summer. When completed, planners will be able 
to use the Resource Effectiveness Model to assist in designing resource 
mix and allocation plans that yield the highest return.
                       automation and technology
    Technology improvements have also played a key role in the success 
of Border Patrol enforcement functions. Our technology investments make 
our agents more effective in every phase of border enforcement from 
deterrence to apprehensions to case processing. For example, the IDENT 
system, a database based on fingerprints of apprehended aliens, allows 
agents to positively identify criminal aliens and repeat crossers 
previously apprehended.
    In fiscal year 1998, INS began installing ISIS, the Integrated 
Surveillance Intelligence System, a state-of-the-art force-multiplier. 
This field-tested technology consists of poles to which day and night 
vision cameras are attached, which are linked to centrally located 
command centers equipped with video monitors allowing a single agent to 
monitor a vast area of terrain. The ISIS system also includes ground 
sensors which, when triggered, send a signal to a designated camera. 
The video-monitoring site is alerted and can immediately view the site. 
This technology significantly enhances Border Patrol's ability to 
maximize effectiveness and agent safety. The camera may reveal anything 
from armed drug smugglers requiring immediate dispatch of agent teams, 
to animals requiring no response at all. ISIS is now being deployed to 
Nogales, El Paso and Laredo, with 58 additional sites planned this 
year. Other high tech tools include personal night vision equipment, 
long range infrared scopes, encrypted radios and GPS, Global 
Positioning System locators.
                              construction
    The fiscal year 2000 construction budget request includes 
approximately $34 million for 7 Border Patrol facility construction 
projects. Since fiscal year 1995, INS has initiated 25 major 
construction projects in support of expanding operations along the 
Southwest border, with an estimated cost in excess of $110 million. 
Eight additional projects, estimated at over $47 million, will be under 
construction in fiscal year 1999. Additionally, over $20 million has 
been spent to address safety and health problems, including the clean-
up and replacement of leaking underground fuel tanks, and for needed 
renovations at existing facilities, and the repair and improvement of 
border barriers, such as fences, lights and roads.
                         recruitment and hiring
    The President's fiscal year 2000 budget maintains Border Patrol 
staffing at the fiscal year 1999 authorized level of nearly 9,000 
agents, which represents a 126 percent increase and approximately 5,000 
agents over the fiscal year 1993 level of 3,965 agents.
    We have met our hiring goals for the past four years and in fact 
exceeded them for the past two years. Over the past four years, we have 
hired over 6,100 new agents which, taking into consideration all 
losses, has resulted in a net gain of more than 3,500 agents. In fiscal 
year 1998 alone, we hired 1,900 new agents. In fiscal year 1996. we 
established a satellite basic training facility in Charleston, South 
Carolina, and we continually expand it to meet our training needs. With 
this enormous influx of new agents, we have maintained the quality of 
our training while raising our recruitment standards.
    This year, we anticipate the need to hire 2,000 agents to meet our 
hiring goal of increasing staffing by 1,000 agents. Through mid-year, 
we had 8,038 agents on board against an end-of-year goal of 8,947. 
Unfortunately, we estimate that we will fall short of this goal. The 
many reasons for this include a strong economy and low unemployment 
rate affording applicants multiple job opportunities. The INS is not 
the only agency experiencing difficulty in meeting its staffing goals. 
We understand, for example, that some or all of the military services 
are having trouble meeting their recruitment objectives.
    Over the years, we have developed a strong, effective hiring and 
recruiting program that has met the ambitious Border hiring goals, 
while maintaining extremely high standards for our recruits. In fiscal 
year 1998 only 4 percent of those who applied were actually hired 
(49,000 applied, and 1,971 hired). Many applicants after signing up for 
our test choose not to take it, and our strict screening process 
eliminates many more candidates.
    Because of the tight labor market and the sheer number of 
applicants needed, a single approach or targeting one group of 
potential applicants will not work. We continue to institute new means 
by which we can attract candidates. For instance, we are focusing our 
efforts on increasing public awareness of job opportunities in the 
Border Patrol. There is often little public awareness of the Border 
Patrol occupation outside of the Southwest border states. With the help 
of a professional advertising agency, we hope to increase awareness of 
Border Patrol job opportunities in the rest of the United States, as 
well as continue our efforts in the Southwest border states. By 
increasing awareness, we hope to attract a diverse group of well-
qualified candidates.
    We have stepped up efforts in the home states of successful 
candidates. We track all of our ads with extension codes to determine 
which ads draw candidates. We are also tracking which colleges our new 
officers graduate from, the major they pursued, and the magazines they 
read. All of this information helps us better understand where we need 
to build awareness of Border Patrol careers and where we currently have 
strong recruiting success.
    This fiscal year, we held special hiring events in El Paso, Tucson, 
and New York with another event scheduled in May in San Diego. 
Additionally, for these locations, we conducted a media blitz. For 
example, in Tucson we placed a Border Patrol ad in eight major papers 
on two weekends in both the classified and sports sections, and in two 
minority targeted publications and Military Base papers. We also aired 
a radio ad 14 times on two Tucson stations, and placed a color ad in 
the Arizona Highway Patrolman and Tucson Star Citizen. For San Diego, 
we have ads scheduled to appear this month in nine major papers. 
Additionally, INS recruits at military bases, colleges and universities 
in or near San Diego, Phoenix or Tucson.
    In fiscal year 1999 we will participate in 200 events including job 
fairs, career days, employer workshops, transitioning military 
seminars, classroom presentations, conference exhibits and community 
events (e.g. fairs, festivals, Native American celebrations, etc.).
    We are also actively recruiting on college campuses. We plan to 
recruit at 120 key colleges identified based on student demographics 
and/or law enforcement curriculum. INS has already participated in four 
interactive student events (sponsored by Sports Illustrated) where we 
attracted thousands of students from all academic disciplines. Also, we 
will target recruitment efforts at key military bases identified by 
installation population and the number of separations each month, and 
40 organizations identified based on the mission and target audience of 
the organization.
    New Border Patrol classified and display ads have been developed 
and placed in hundreds of newspapers (classified and sports sections), 
college placement manuals, Black Collegian and Newsweek magazines 
(metro NYC edition) and a wide variety of other journals and magazines. 
In addition, we routinely fax job vacancy flyers to campus career 
planning and placement offices, criminal justice faculty, military base 
transition offices, and INS offices nationwide.
    The INS created a new Border Patrol Careers Website, and is 
starting to increase Internet advertising with links to this Website. 
In fiscal year 1998, nearly 50 percent of our applicants applied to 
take the test on-line and the other 50 percent used the Telephone 
Application System. This year, the number of candidates applying over 
the Internet has increased to 70 percent. We are pursuing the 
installation of a free job information line so applicants can call to 
get more information on the Border Patrol. We also started a direct 
mail campaign to separating military service members through the use of 
the DOD Transition Bulletin Board and Defense Outplacement Referral 
Service. As of April 14th, we will have job postings on 11 Internet 
recruitment sites.
    We are significantly increasing the number of Border Patrol agents 
involved in recruiting. I have committed up to 200 agents, who on a 
collateral duty basis will be involved in outreach and recruitment 
activities on college campuses and military installations. To back up 
this local recruiting initiative, we will increase our advertising, 
including the development of public service announcements for radio.
    In order to translate recruits into actual hires, we have revamped 
our hiring process by decreasing the amount of time it takes to go 
through the process from approximately 26 weeks to as little as 16 
weeks. This makes the Border Patrol more attractive to candidates and 
decreases the likelihood that they will accept another job during the 
hiring process.
                               pay reform
    We are working to address recruitment and retention issues by 
looking at how we compensate our enforcement personnel, particularly 
Border Patrol agents. For the past several years, the INS has been 
working to address numerous challenges in the compensation arena. These 
challenges include: (1) achieving pay equity within INS for enforcement 
occupations; (2) achieving overtime pay parity with other Federal law 
enforcement agencies; (3) streamlining and simplifying administration 
of overtime pay; and (4) establishing a portable overtime pay system 
(carried back and forth between occupations and minimizing loss of 
benefits) for its enforcement occupations.
    Within the INS, the grade levels for experienced officers, also 
known as the journey level, in the various law enforcement occupations 
(Border Patrol agents, criminal investigators, detention officers, 
detention and deportation officers, and pilots, for example) differ 
based on the duties of these positions and the application of 
government wide Office of Personnel Management classification 
standards. The current journey level grade for Border Patrol agents is 
GS-9. Approximately thirty percent of the INS' Border Patrol agents are 
at the GS-11 level based on performing senior level duties. In 
contrast, the journey level for criminal investigators, deportation 
officers, and detention and deportation officers is GS-12. This 
internal difference results in losses from the Border Patrol occupation 
as agents move to these other occupations (within INS and other law 
enforcement agencies) for career growth.
    In addition, INS law enforcement officers (with the exception of 
criminal investigators) are paid a form of annual premium pay called 
Administratively Uncontrollable Overtime (AUO). This form of overtime 
is discretionary with the agency, and we continually examine how it is 
utilized. The INS continues to be subject to significant scrutiny into 
the proper use of AUO. Since AUO is discretionary and criteria bound 
(i.e., the work cannot be administratively controlled), those law 
enforcement officers earning AUO are constantly concerned that the pay 
can, and may, be revoked when they no longer meet the criteria. This 
greatly hampers career development for law enforcement officers earning 
AUO, including Border Patrol agents, who potentially are penalized by 
the loss of AUO for accepting assignments to law enforcement positions 
in headquarters or regional offices, or at the INS training academies. 
Criminal investigators, on the other hand, are paid Law Enforcement 
Availability pay, which is a guaranteed 25 percent annual premium pay, 
regardless of the assignment to training duties or duties at regional 
or headquarters offices. The guaranteed versus discretionary aspect of 
the two overtime pay systems is another motivating factor for Border 
Patrol agents to leave the occupation for criminal investigator 
positions.
    To address these challenges, the Commissioner is studying various 
alternative approaches to achieve a unified, comprehensive reform 
package for INS enforcement officers, including Border Patrol agents 
and Immigration Inspectors. Change in the pay and benefits for our 
officers requires careful consideration of the impact any such change 
will have on our workforce. We must also be mindful of the costs of any 
change. The nuances of pay and the interrelationship between the 
various forms of overtime pay that constitute what an employee brings 
home and his or her retirement benefits are not easily explained nor 
simplified.
                               conclusion
    I look forward to continuing to work with the Subcommittee. With 
your support, we can carry forward our recent improvements. We have 
made great strides in addressing problem areas. I want to work with you 
as we continue our efforts to improve our nation's immigration system.

    Senator Abraham. Thank you. I am going to ask Senator Kyl 
to preside briefly while I meet with some constituents.
    Senator Kyl, you can start the questions, and I will follow 
up.
    Senator Kyl [presiding]. Thank you. It is my understanding, 
based on your testimony, that you said that the Tucson sector 
will receive 350 of 1,000 agents provided for this year; but 
that is not really going to happen, is it?
    Mr. de la Vina. At the present time, based on the time of 
the year that we are, the 1999 deployment which called for the 
1,000 agents, we will not be able to fill those numbers. We 
probably will be looking at about 200 to 400 out of the 1,000.
    Senator Kyl. Two hundred to four hundred out of the 1,000?
    Mr. de la Vina. That is correct.
    Senator Kyl. So instead of 350, the Tucson sector might get 
how many?
    Mr. de la Vina. It would be difficult to say. We have two 
priorities established for the--based on our strategy, and that 
would be Tucson and McAllen, TX.
    Senator Kyl. So instead of 350, do you think maybe 
someplace in the area of 100 to 150 might be a closer guess?
    Mr. de la Vina. It would be somewhere in that vicinity.
    Senator Kyl. So half as many as were expected?
    Mr. de la Vina. That is correct.
    Senator Kyl. And I gather that the 350 were based upon your 
idea of what was important or necessary to deploy; is that 
correct?
    Mr. de la Vina. That is absolutely correct.
    Senator Kyl. Now, for about a month and a half Senator 
Hutchinson and I have been requesting information from INS on 
ways to help with recruitment and retention to meet the problem 
that you just testified to. We just passed the Soldiers and 
Sailors Relief Act, as the first bill that Congress passed in 
this session, to ensure that we could recruit members for the 
military.
    As you pointed out, INS has to face that same kind of a 
challenge. So we thought we would get a good start on this. We 
would introduce legislation. We would increase salaries. We 
would provide for more benefits. We thought it would be a good 
idea to check with INS first to see what suggestions they would 
have. Three times now INS has canceled meetings with my staff. 
We cannot get any information. None.
    Yesterday, we had thought that we were finally going to get 
some information on border patrol salaries, and the officials 
called to say they could not provide the information. Can you 
help me out?
    Mr. de la Vina. Yes, sir. Pay reform is critical to us, 
needless to say.
    Senator Kyl. Well, you have got two people that have said 
they are willing to do it. For a month and a half we have been 
trying to help, and we get stiffed by the INS.
    Mr. de la Vina. I know that I have had conversations with 
Commissioner Meissner, and I know that we are studying, and she 
has commissioned the HRD or human resource program to look at 
the feasibility of moving the journeyman level or the journey 
level from GS-9 to a GS-11, which would help us tremendously as 
far as the retainment of our agents.
    We are also looking at the feasibility of increasing the 
salary of those who are entering in. I know that this is 
ongoing. I do not know why they have not met with you, sir.
    Senator Kyl. Well, anything you can do to help. We are 
going to, meanwhile, just go ahead and introduce the bill to 
raise it from 9 to 11 since that seems to be everybody's idea 
of what ought to be done, and later on we can change it if INS 
finally decides that they want to get engaged in this.
    Now, one of the reasons--after recommending 1,000 agents, 
Doris Meissner, Commissioner Meissner, testified to the 
Appropriations Committee in a variety of ways as to why INS 
really needed to take a breather, even though she herself later 
acknowledged that she had, in fact, recommended 1,000 agents. 
But among the reasons was the fact that there are a lot of 
inexperienced agents now. The Tucson sector, as you 
acknowledge, is probably the top priority, but at a minimum, 
one of the two top priorities for adding new agents.
    My figures show that in the Tucson sector, 80 percent of 
the agents have 2 years or more of experience. So you do not 
have--I mean there may be a problem of inexperienced agents at 
some places along the border, perhaps in the San Diego region, 
but in the Tucson sector, you could hire a lot of agents and 
still have plenty of people who have been there, with 2 or more 
years of experience, to help train them.
    So you have got a sector that needs the infusion of new 
agents. You have got 80 percent or more that have 2 or more 
years of experience. So why would that be an excuse for not 
putting more agents in the Tucson sector now?
    Mr. de la Vina. Sir, we need Border Patrol agents. I do not 
think you are going to find a Border Patrol agent say that we 
do not need additional Border Patrol agents, including myself. 
We do need the agents. I think that there is a concern, and I 
will express the same concern, not at the expense of not having 
Border Patrol agents, but we have grown tremendously. We have 
added a lot of additional personnel.
    One of our problems is, and specifically in your area of 
Douglas, I cannot put up an infrastructure as far as a 
building. We have grown from 63 agents to over 300 agents. I 
don't have parking places for the agents to park.
    Senator Kyl. But they will not accommodate it. You are 
exactly right, and so we have an Administration that puts zero 
money in the budget for this year for the new Border Patrol 
station at Douglas.
    Mr. de la Vina. These are some of the issues that, you 
know, we are looking at. As far as the----
    Senator Kyl. Let me just say we have got to stop looking 
and start doing, because I have indicated a willingness to fund 
these things. We requested the money for the Douglas Border 
Patrol station. We have requested the money for the agents.
    The Administration just created a brand new $600 million 
local COPS program, announced with great fan fare. I do not 
know where the money came from, but there is about $600 million 
missing from Customs and INS. Now, the Federal Government--and 
I am not directing this at you, but you can tell that I am 
frustrated as heck. I know you are too. I know Chief Sanders 
is, but the President makes a big announcement about this brand 
new COPS program.
    Now, the people in Tucson and Douglas and Nogales and 
Phoenix and of all of other communities in the country care 
about their local citizens and their cops. It is their 
responsibility. The Federal Government can provide some support 
for that, but that is a shared responsibility at best and 
certainly first and foremost a local responsibility.
    The Federal border is the Federal Government's 
responsibility, and so when money is taken out of the INS and 
Customs budget and put in these other programs that may have a 
little bit more political appeal around the country, it is very 
frustrating to me, and when we say, well, we are going to have 
to study where we are going to get the money for a new Border 
Patrol station in Douglas, and not having the new station is 
one reason why we do not employ more agents there even though 
everybody recognizes we need them, it just seems to me that our 
priorities are really wrong here.
    And by our, I do not mean the Congress. I do not mean this 
subcommittee. I mean the Administration, and we really need 
spokesmen with the agency that are willing to plead our case. 
Any further comment on that?
    Mr. de la Vina. This is--in 1994, we developed the national 
strategy. It is an integrated incremental control of our 
border. Some of the frustrations that you feel are some of the 
frustrations that a lot of us felt in 1993, between 1990 and 
1993, especially in the San Diego area.
    San Diego was apprehending over half a million illegal 
entrants on a yearly basis, where Tucson is doing 2,000 arrests 
on a daily basis. San Diego, in the mid nineties, early 
nineties, was doing 3,000 to 4,000 arrests. We had a 
tremendous, tremendous influx of illegal entries in the San 
Diego area. Back then, we had absolutely no resources. Back 
then, the possibility of controlling the border was, at best, 
totally remote. We were being totally overrun.
    Since 1994, we developed a national strategy. It is 
incremental control. It took us a considerable amount of 
effort, technology, equipment, support from the Congress to get 
San Diego under control. San Diego today, from the half a 
million arrests that were being registered in 1993, 1994, have 
now been reduced to 248.
    We have another success story in El Paso, TX. El Paso, TX 
was the second hottest spot along the southwest border. 
Apprehensions--back then it was Chief Reyes, now the chief in 
San Diego. He was the chief in El Paso--we registered close to 
200,000, 300,000 arrests on a yearly basis. Again, with the 
support, with the strategy that was developed, those 
apprehensions have been reduced considerably where El Paso now 
is registering 125,000 per year.
    Senator Kyl. Can I just make a point here? The application 
of fences, technology, and manpower makes a big difference.
    Mr. de la Vina. Absolutely.
    Senator Kyl. It could really resolve the problem, can it 
not?
    Mr. de la Vina. Very much so.
    Senator Kyl. Thank you.
    Mr. de la Vina. We anticipated that as we were moving with 
the strategy or infrastructure which consisted--the corner 
stone of the strategy basically is deterrents. With that, we 
have three major components: personnel, equipment and 
technology. We applied that in both locations. It worked.
    We anticipated there would be another hot spot. We have 
identified two spots, primarily Tucson in Arizona, which 
encompasses basically the whole state of Arizona, and the areas 
in Texas. We are presently focused in these two locations. We 
initially--when I say incremental, it took San Diego 4 years 
and approximately an additional 1,200 agents to bring that 
under control.
    We started addressing Tucson several years ago with the 
infrastructure in Nogales. This is where the biggest 
concentration of people entering were located. We concentrated 
resources, sent additional people to those stations, built 
lights--I mean we brought lights. We build fences, sent 
additional resources. That area is now getting under very good 
control.
    As we anticipated, a shift occurred. It is occurring in the 
Douglas, AZ area. We are--based on what we anticipated would 
happen, we started working on Douglas over a year ago, building 
an infrastructure there. We started with fences near the point 
of entry. We are bringing in lights, additional resources, 
getting prepared for what we are seeing right now that is 
happening.
    One of the things that normally happens when you move into 
an operation of this magnitude with additional resources, the 
apprehensions will go sky high. It takes a while for it to 
level out. We know what we need to do in Douglas, AZ. We are 
getting there as fast as we can. Additional resources are 
required. Right now, of the 1,000 agents, 400 agents, totally, 
were assigned to the Arizona area because of that specific 
priority. We are doing everything we possibly can. 
Unfortunately it does take some time.
    Senator Abraham. We have been joined by Senator Schumer.
    Senator if you would like to make an opening statement, or 
if you have some questions, or a little of each.

 STATEMENT OF HON. CHARLES E. SCHUMER, A U.S. SENATOR FROM THE 
                       STATE OF NEW YORK

    Senator Schumer. Well, thank you, Chairman Abraham, and I 
appreciate your holding this hearing and the opportunity to say 
a few words, and my concern obviously is the northern border. 
We have a large border in New York State, as you know, and we 
need more help there.
    I have always supported an increase in border agents, 
because I have realized the problems for the 18 years I have 
been in the house. But when you look at the total number of 
people on the northern border, it is appallingly low. I believe 
there are only 300 agents on the entire northern border, and 
you have stepped up efforts, as you should, which I fully 
support, on Mr. Kyl's border, on the southern border.
    Mr. Abraham and I and others on the northern border are 
seeing an increase in people trying to come across the border, 
the northern border, as the southern border gets some more 
attention. Just to give you some numbers, the northern border 
is 3,900 miles. The southern border is 1,800 miles. So it is a 
much longer area, and again this is not an either/or situation. 
We have more agents and we need some help.
    There are 8 to 12 hours a day when the northern border is 
unwatched, and some experts actually suggest that 500 to 600 
agents would be more appropriate for a 24-hour watch. Now, 
given the fact that there are 8,000 agents and the illegal 
immigration reform and Immigrant Responsibility Act mandates 
you to hire another 1,000 by the year 2001, we think we can get 
a little help.
    So a few more points about it: Buffalo, for instance in my 
area which is one of the busiest, I think the second busiest 
general crossing point for the northern border, has become a 
focus for some who are smuggling in aliens. We need more help 
there. I would make a request that we need it.
    Now, I want to thank INS Commissioner Meissner for suring 
up another part of our border. You know the region--we did get 
an additional 22 agents between Massena in the north country 
and Vermont, but even there, from what I am told, that has not 
been enough to do the whole job. And so I would ask two things: 
No. 1, that we fully fund the Border Patrol, and I think we 
definitely should be doing that, and to increase the number of 
agents in New York throughout from Plattsburgh all the way to 
our western New York border in Buffalo and help us there.
    I know that Operation Over the Rainbow, which successfully 
targeted some of those smuggling Chinese nationals across the 
New York border, was a big success, but it shows something. It 
shows that we needed the help, and since that was just one 
operation, I think we should make it permanent that we have the 
kind of help we need. I mean, I think there is no better 
testimony to the fact that we need more INS resources on the 
New York-Canadian border than this.
    And just one other point not related to your direct 
jurisdiction, but if you would bring it back to Commissioner 
Meissner, we also have a problem with INS agents. These are not 
Border Patrol, but INS agents on our northern border, because 
we have huge backups and, as you know, to regulate that border, 
we have alternating--we have Customs agents, INS agents, Custom 
agents, INS agents. The backups are huge.
    In western New York and the northern frontier, we depend on 
commerce by Plattsburgh and Massena, because it comes down by 
Montreal by Buffalo because of Toronto, the two biggest 
population areas of Canada, and in recent years the increase 
and prosperity and everything else has made those borders much 
busier, and the backups are enormous.
    Commissioner Kelly was nice enough to visit Buffalo and 
Niagra Falls with me last Friday and graciously committed to 
add 25 new agents at peak hours to help. I would ask that you 
convey a similar request to Commissioner Meissner, again for 
our whole northern border frontier, because the backups are 
enormous and we are losing out in terms of business, in terms 
of traffic and everything else.
    So I guess three requests: One, fully fund the border 
patrol; two, on Border Patrol, give the northern border its 
fair share. Three hundred agents out of 8,000 is a pretty small 
ratio, particularly given that Operation Over the Rainbow shows 
that we have an increased need; and No. 3, pass up to the top--
I am going to convey this myself directly, but it cannot hurt 
to have it internal and external--to the commissioner and the 
Attorney General that we need more agents as well, because our 
commerce is getting backed up, particularly at certain times to 
a point where it is really harming us.
    Mr. de la Vina. I would be happy to, Senator.
    Senator Schumer. Thank you.
    Senator Abraham. Thank you, Senator Schumer. For every one 
he gets, I want two.
    I have to say there is a certain kind of ironic, I suppose, 
quality to this hearing in the sense that throughout Capitol 
Hill, the hearings are held in which people come from the 
agencies to tell us that they need more support to get their 
job done and try to persuade sometimes reluctant authorizers 
and appropriators to give them support. Here it is almost like 
we have the opposite happening, which is we have all the sort 
of desire, it seems, on this community on both sides of the 
aisle to give the support that is needed and, frankly, go 
beyond what we have done already if we are told that that is 
not enough to get the job done, and yet a resistance seems to 
be there, and I am not--you know, I do not want to get into all 
the nuances of this, but I at least want to have a discussion 
here about the challenge you confront and what we can do to try 
to help it.
    I am not going to get into the internal challenges that may 
be confronted. That we may deal with at another time. But you 
are saying as I understand it, that essentially this coming 
year or during this fiscal year the expectation is that you 
will add 200 to 400 agents?
    Mr. de la Vina. Out of the 1999 deployment, yes, sir.
    Senator Abraham. Is that a net increase?
    Mr. de la Vina. That would be a net increase.
    Senator Abraham. OK. And so we are going to be somewhere 
between 600 and 800 short of the goal that the authorization in 
the 1996 bill set. What can we do? I mean what in terms of 
help. I understand an ad campaign can be helpful and so on, but 
is the pay grade a problem here?
    Mr. de la Vina. Pay reform is, as Senator Kyl has pointed 
out, something that definitely would help. I think that with 
the direction and the commitment that the commissioner has 
given the HRD program to come with pay reform, I think that we 
are going to see some good things come out of that one. I think 
we are going to increase our entrance pay as well as the 
upgrade that the Senator has mentioned between the GS-9 and GS-
11. That is going to be a big help for retention purposes.
    Right now we have a retention rate of about 10 percent. So 
we are losing people. There is no two ways about it. San Diego 
has lost----
    Senator Kyl. Excuse me. You said a 10 percent a year loss?
    Mr. de la Vina. Yes. So we do lose quite a few agents, and 
we do not have--we are not comparable to, say, a GS-12 
investigator. It is not that we are losing them a lot to 
outside agencies. We are losing them internally to 
investigations, which is a journey level of a GS-12.
    So if you feel any reluctance, Senator, as far as requests 
or what have you, you have to understand I have been in the 
Border Patrol for 29 years, and it has been very--it has been a 
rocky road. I was the chief in San Diego from 1990 to 1995, and 
those early years from 1990 to 1993, we were operating with no 
resources. We had nothing. I mean, we did not have--we kept our 
vehicles running with baling wire and chewing gum. I had 800 
agents to handle close to a half a million apprehensions that 
were being registered. The best technology we had was a pen.
    In 5 short years, I mean with your help, with the support, 
we have grown tremendously. So it has been like Christmas in 
July for the Border Patrol. Yes, we are still a long way from 
the mark, but I have got to tell you, we have come a heck of a 
long way, and any help is absolutely, you know, requested and 
appreciated.
    We handle the toughest border entry point along the 
southwest border. San Diego, CA was impossible to control, and 
I think Senator Feinstein will verify to that. I mean, yes, we 
would catch maybe 2,000, 3,000, 4,000 people. We were losing a 
heck of a lot of people. You go down there now. The strategy 
has worked. It took us time. It took the personnel equipment 
and resources.
    So you are not going to hear us say that we are reluctant 
to accept any help because you have helped us tremendously, and 
in order to control this border, we have proven that we can get 
a foothold on the border. We have taken care of the two hottest 
locations traditionally, historically, along the 2,000 miles, 
and we can do that.
    Senator Abraham. In order to meet the goal, though, of 
1,000 new agents per year, I guess you are indicating that we 
need to basically recruit about 1,800 new people then? Hire 
1,800 new to get 1,000 net?
    Mr. de la Vina. Well, actually it is going to be more than 
that, Senator. Right now, I think with the 1998 figure, we had 
to hire 5,000 to show a net of 3,000 agents. We have to make at 
least 120,000 contacts to come up with the 2,000 figure for 
next year.
    What we are--I think one of the biggest things that we are 
coming up with right now, and it is going to be at a sacrifice 
in cost, would be the recruitment efforts that the Border 
Patrol is going to initiate. I have assigned close to over 
150,000 agents that will be devoted to doing this recruitment 
and targeting these locations that I have mentioned, but it is 
a tough market right now, very tough.
    Senator Abraham. In terms of the issues that relate to 
compensation and so on, is there anything--do you see any 
impediments or potential problems to this occurring?
    Mr. de la Vina. I think it is a win-win all the way around. 
I think with pay reform, it would solve a lot of our problems. 
I do not see any deterrents that say--the instructions or the 
direction that I have gotten, so I know this is what is 
happening, is that the commissioner will not--wants to increase 
and does not want to hurt any agent, or let us say any category 
of agents, or personnel in any capacity on this pay reform 
issue.
    Senator Abraham. Where does it stand exactly? Just to 
clarify for us, what has to still happen for that to----
    Mr. de la Vina. I met with HRD yesterday on this specific 
issue, and I think they are close. I think they have got--you 
know, they are still working. I hate to say that, that they are 
still working on it, but unfortunately that is what it is. They 
have got some of the issues resolved, and I think that if I had 
to give you a time frame, we are a heck of a lot closer than we 
were a year ago.
    Senator Abraham. Who should we speak to if we wanted to get 
more information?
    Mr. de la Vina. I would be happy to convey that. If not, 
you can--you know, to the commissioner.
    Senator Abraham. OK. Does this involve OPM as well as INS?
    Mr. de la Vina. Yes, it is a combination. In order to 
sustain--in other words, in order to sustain that GS-9 level, 
our HRD program must make sure that the classification is 
correctly certified and that they meet this criteria that OPM 
has established. That is a difficult process to do. That takes 
a considerable length of time, but it is beginning to look a 
lot better, or I feel that it is beginning to look a lot 
better.
    Senator Abraham. Senator Kyl, do you want to ask some more 
questions?
    Senator Kyl. No, just two quick observations. Our bill is 
in counsel right now, I am informed, so hopefully we will have 
it introduced by tomorrow or at least by the end of the week, 
and if you have any suggestions after it is introduced as to 
how to improve it, I will expect that you or the commissioner 
will get those to us.
    Mr. de la Vina. Thank you, Senator.
    Senator Kyl. And second, I would just reiterate something. 
I appreciate everything you have said about the work that you 
did in San Diego. I am well aware of it. Duncan Hunter used to 
tell me all about the great work you were doing there, and I 
know when we put the fences up. When we got the agents there, 
it made all the difference in the world.
    We have done the same, to some extent, in Texas. It has 
been squeezed to Arizona. That is where they are coming through 
now, and the Representative from Arizona--I just cannot remain 
silent with an Administration that recognizes the nature of 
this problem and then requests zero funding. You do not hire 
any new agents with zero funding. We will have to try to find 
the money to put it back in, but in the meantime, I think we 
have to tell the truth.
    Thank you, Mr. Chairman.
    Senator Abraham. Senator, thank you. I just echo the 
statements, and from a perspective of the northern border, as 
Senator Schumer has indicated and as I mentioned in my opening 
remarks, when we are dealing with a small number of agents 
trying to cover that wide an area, happily they are not the hot 
spots that you have referenced in the southern border, but it 
is still a challenge; and I guess the thing I want to leave you 
with is the following:
    One of the things that has been a little frustrating to me 
in the time that I have had this chairmanship, is it seems 
like--and I do not want to characterize it. It seems like a 
resistance. It seems like people keep telling us well, if we 
only could do X or Y or Z, then something might happen or we 
will get the results we want, and I guess what I want to leave 
you with is the following request. If there are other things 
you need, we need to know about it. We cannot guess. I mean, we 
are not experts--you are--as to the resource requirements, and 
so what I would hope is that if we somehow address the pay 
grade issue, that we would not then be told, well, now the 
problem is that we have inadequate training facilities or that 
the next thing we would hear is that, well, there are not 
enough parking spots.
    I understand that, but let us get it all out on the table 
at one time. Let us not sort of move from one impediment to 
another so that we never solve the problem, because it is clear 
to me that to assimilate that large a number of new people does 
require other resource allocations, whether it is for vehicles 
or for communication equipment or for even parking spots, but I 
do not want to hear about it piecemeal, because then I know 
nothing will ever get done. We will keep just sort of moving 
from one to another of these individual problems, and therefore 
never have a comprehensive solution.
    And so I think I speak for Senator Kyl and I in saying let 
us--you know, we like the blueprint, not just the problem of 
the day, because the problem of the day can be addressed, but 
then we have got another set of hearings to figure out what the 
next impediment is. So I urge you and I urge everybody at the 
INS to try to give us the full blueprint, because I am struck 
by the extent of Congressional support to provide assistance in 
this one area.
    It is the one area where there does not seem to be the 
slightest debate and controversy of either a partisan sort or 
of a monetary sort or anything else, but what is frustrating 
people, and I think what is eroding confidence here a little 
bit, is the sense that, you know, even when sort of there is a 
desire, there does not seem to be a blueprint to get to the 
finish line.
    So for today, we will at least bring down the curtain, but 
I hope you will let us know comprehensively what it is that 
would make the package complete, not just the pay, but the 
other things that would have to also be part of a successful 
solution; and with that, I want to thank you. I know it is a 
lot easier to come up here and hear other news, but I think it 
is important that we kind of get these issues ventilated a 
little as well. We appreciate your being here.
    Mr. de la Vina. Thank you very much.
    Senator Abraham. Thank you.
    We will now have our second panel join us. We are going to 
hear in this second panel from three witnesses, if you would 
all come forward. Joining us on this panel is, first, Ron 
Sanders, who is the chief of the chief patrol agents 
association as well as the Border Patrol sector chief for the 
Arizona border with Mexico; Gail Griffin, who is a State 
Representative from Sierra Vista, AZ; and Robert Lindemann, who 
is a senior patrol agent in the Detroit sector and a 15-year 
veteran, as well as the union steward for the National Border 
Patrol Council.
    Before we go any further, I do not know, Senator Kyl, if 
you want to make any additional introductory remarks.
    Senator Kyl. Well, I might just with respect to Gail 
Griffin. Actually, since I do not know Mr. Lindemann, I cannot 
say anything nice about him.
    Mr. Lindemann. I used to live in your area.
    Senator Kyl. Is that right?
    Mr. Lindemann. How is that?
    Senator Kyl. In that case, I will say why did you leave? 
No, I am sure you got transferred.
    I will just make this very brief statement. Ron Sanders has 
been enormously helpful to me. Every time I want information, 
we are able to get it. We go to the border, he is there to 
point out things to us. He represents his people very, very 
well. He has given us a lot of good suggestions. He has 
answered a lot of questions, and I think he tells the truth 
when he is describing the situation on the border. He has made 
a big difference there.
    Gail Griffin, a member of our state legislature has been 
thrust into the limelight here because her constituents have 
been beating a path to her door in a way that--well, let us put 
it this way: It has gotten everyone's attention, and she has 
had to juggle the problem of angry constituents who want 
answers to questions now and with the professionals who are 
clearly tasked with the job of controlling the border with a 
Federal Government that I am sure she is a bit frustrated with, 
wondering why we cannot get some relief, and perhaps the last 
panel suggested some of the problems for Representative 
Griffin.
    But I am delighted there at least two Arizona and one 
former Arizona constituents on this panel here today. Thank 
you.
    Senator Abraham. Thank you all very much. I sort of went 
through the clock explanation already. So we will turn to each 
of you now for opening statements.
    Chief Sanders.

  PANEL CONSISTING OF RON SANDERS, CHIEF, CHIEF PATROL AGENTS 
ASSOCIATION, U.S. BORDER PATROL, TUCSON, AZ; HON. GAIL GRIFFIN, 
 STATE REPRESENTATIVE, SIERRA VISTA, AZ; AND ROBERT LINDEMANN, 
    SENIOR PATROL AGENT, DETROIT SECTOR, AND UNION STEWARD, 
          NATIONAL BORDER PATROL COUNCIL, DETROIT, MI

                    STATEMENT OF RON SANDERS

    Mr. Sanders. Good afternoon, Mr. Chairman and distinguished 
members of the subcommittee. I appreciate the opportunity to 
share with you the views of the membership of the Chief Patrol 
Agents Association on the need for additional Border Patrol 
agents. We appreciate your past efforts to provide the Border 
Patrol with the support and resources necessary to strengthen 
the enforcement of our Nation's immigration laws.
    During this fiscal year, it is anticipated that the Border 
Patrol will arrest 1,600,000, and we will seize 1,200,000 
pounds of marijuana. Our arrests and seizures, coupled with the 
hundreds of thousands of violators that we do not catch, 
clearly indicate we need additional resources.
    On February 25, 1999, former chief patrol agent and current 
representative Sylvester Reyes testified that his staff has met 
with all five Texas Border Patrol chiefs and they stated that 
they desperately need more agents. He indicated that he thought 
the response would be the same if every Border Patrol chief 
were asked the same question.
    I have spoken with the 21 Border Patrol chiefs, and 20 of 
the 21 believe that they desperately need more agents. The 
chief patrol agent in San Diego feels confident that he has the 
personnel necessary to maintain the control that has been 
established in his sector, however attrition is a major 
concern. San Diego lead the nation in attrition, and at the 
current time, loses one agent every day or some 365 agents per 
year.
    Other sectors have similar problems. I have spoken to 
Senator Kyl about this problem. He is very interested in 
finding ways that this agency can maintain a highly trained 
professional work force. The Border Patrol has a growing need 
for additional high caliber agents. It does not make sense to 
spend large sums of money training these agents, only to lose 
them to other agencies and private industry. We look forward to 
working with Senator Kyl and other members of Congress to solve 
this costly problem.
    During July 1998, the Population Research Center at the 
University of Texas at Austin completed a study entitled ``An 
Estimate of the Number of Border Patrol Personnel Necessary to 
Control the Southwest Border''. The study estimated that 16,133 
Border Patrol agents would be needed to control the 1,782 miles 
along the U.S. border. In addition, we believe that the 
northern border and interior locations should be staffed with a 
force of 4,000 Border Patrol agents.We should strive to have an 
on-duty force of 20,000 Border Patrol agents if we are to be 
effective in our mission of controlling the borders of the 
United States.
    In 1994, the Border Patrol developed a strategic plan to 
control illegal immigration along the southwest border. This 
plan called for sending most of the enhancement personnel to 
areas that had the heaviest volume of illegal immigration 
entries. At that time, those areas were El Paso, TX and San 
Diego, CA. The strategy was successful in shifting large 
numbers of illegal aliens into other sectors, however we have 
not received sufficient resources to deal with the increases of 
illegal entries brought on by this strategy.
    We are witnessing a dramatic increase in the number of 
complaints received from ranchers, farmers, local law 
enforcement agencies, and providers of social services that 
have been impacted by these shifts in illegal immigration 
patterns. The plan has not been revised since it was 
implemented in 1994. This association has asked that the plan 
be updated on a quarterly basis.
    A strategy that works in San Diego may not be the best 
strategy for Tucson. The terrain, social, and political 
climates are not the same at each location, and the local 
sector chiefs need the ability to manage the unique problems 
that they face in their individual sectors. We do not feel that 
we have a strong interior enforcement program, and the illegal 
alien population inside the United States is growing at an 
alarming rate.
    The true judge of the enforcement success of this agency 
will be the report card provided by the Census Bureau in the 
Year 2000. We believe that several Congressional districts will 
be changed based on population shifts caused by large 
concentrations of illegal aliens in the interior of the United 
States.
    In order to be successful, we need an organizational 
structure that will enable us to focus on our enforcement 
mission. As you move forward with your work in the area of 
reorganizing the INS, we ask that you provide us with an 
organizational structure that will enable us to focus on a 
single mission of enforcing the immigration laws of the United 
States.
    Mr. Chairman and members of the subcommittee, the sector 
chiefs and the agents of the U.S. Border Patrol are proud to be 
serving their country and are proud to carry out the 
immigration laws that have been passed by Congress. I thank 
you, and I would be happy to answer any questions that you 
might have.
    [The prepared statement of Mr. Sanders follows:]

                   Prepared Statement of Ron Sanders

                              introduction
    Good Afternoon Mr. Chairman and distinguished members of the Senate 
Subcommittee on Immigration. I appreciate the opportunity to share with 
you the views of the membership of the Chief Patrol Agent's Association 
on the ``The Need for Additional Border Patrol Agents at the Northern 
and Southern Borders''. We appreciate your past efforts to provide the 
Border Patrol with the support and resources necessary to strengthen 
the enforcement of our nation's immigration laws along the borders of 
the United States.
                need for additional border patrol agents
    During this fiscal year it is anticipated that the Border Patrol 
will arrest 1,600,000 individuals that enter the United States in 
violation of law. In addition we will seize 1,200,000 pounds of 
marijuana. Our arrests and seizures coupled with the violators that we 
do not catch clearly indicate we need additional resources to 
effectively enforce the immigration laws of the United States.
    On February 25, 1999, former Chief Patrol Agent and current 
Representative Silvestre Reyes testified before the Committee on the 
Judiciary Subcommittee on Immigration and Claims. He stated that his 
staff had met with all five Texas Border Patrol Chiefs and they all 
stated that they desperately need more agents. He indicated that he 
thought the response would be the same if every Border Patrol Chief 
were asked the same question.
    I have spoken with the twenty-one Border Patrol Chiefs and twenty 
of the twenty-one believe that they desperately need more agents and 
associated support resources. Since 1993, the San Diego Sector has 
received unprecedented increases in personnel, equipment, and advanced 
technology. The Chief Patrol Agent in San Diego feels confident that he 
has the personnel necessary to maintain the control that has been 
established in his sector. However, attrition is a major concern. San 
Diego leads the nation in attrition and at the current time loses one 
agent per day (i.e., over 365 agents per year). The other sectors along 
the southern border have similar problems with attrition. I have spoken 
to Senator Kyl about this problem in the Border Patrol and he is very 
interested in finding ways that this agency can maintain a highly 
trained, professional work force. The Border Patrol has a growing need 
for additional high caliber agents and it does not make sense to spend 
large sums of money training these agents only to lose them to other 
agencies and private industry. The Chief Patrol Agent's Association 
looks forward to working with Senator Kyl and other members of Congress 
to solve this costly problem.
    During July 1998, the Population Research Center at the University 
of Texas at Austin completed a study entitled An Estimate of the Number 
of Border Patrol Personnel Necessary to Control the Southwest Border. 
We believe that this comprehensive study presents the best estimate of 
the staffing levels required to control and deter unauthorized 
crossings at the U.S.-Mexico border that we have seen to date. The 
study estimated that 16,133 Border Patrol Agents would be needed to 
control the 1,782 miles along the U.S.-Mexico border. In addition we 
believe that the northern border and interior locations should be 
staffed with a force of 4,000 Border Patrol Agents, thus the 
Association of Chief Patrol Agents believes that we should strive to 
have an on duty force of 20,000 Border Patrol Agents if we are to be 
effective in our mission of controlling the borders of the United 
States.
                      border patrol strategic plan
    In 1994, the Border Patrol developed a strategic plan to control 
illegal immigration along the southwest border. This plan called for 
sending most of the enhancement personnel to areas that had the 
heaviest volume of illegal immigration entries. At that time those 
areas were El Paso, Texas and San Diego, California.
    The strategic plan called for controlling certain geographic areas 
thus shifting the flow of illegal aliens into other areas along the 
southwest border in the short term. As the flow of illegal aliens was 
shifted, additional personnel were needed to apprehend the aliens that 
were using the newly created entry corridors.
    The strategy was successful in shifting large numbers of illegal 
aliens into Border Patrol Sectors located in El Centro, California; 
Yuma, Arizona; Tucson, Arizona; Del Rio, Texas; Laredo, Texas; and 
McAllen, Texas. However, we have not received sufficient resources to 
deal, with the increases of illegal entries brought on by the strategy. 
Therefore, we are witnessing a dramatic increase in the number of 
complaints received from ranchers, farmers, local law enforcement 
agencies, and providers of social services that have been impacted by 
these shifts in illegal immigration patterns.
    The 1994 Border Patrol Strategic Plan has not been revised since it 
was implemented in 1994. This Association has asked that the plan be 
updated on a quarterly basis and that the strategy be flexible enough 
to accommodate the different political, social, and economic conditions 
that exist in the different sectors. A strategy that works in San Diego 
may not be the best strategy for Tucson. A strategy that works in El 
Paso may not be the best strategy for Del Rio. The terrain, social, and 
political climates are not the same at each location and the local 
sector chiefs need the ability to manage the unique problems that they 
face in their individual sectors.
    We believe that once illegal aliens flow through newly created 
corridors provided to them by an, as yet, incomplete execution of the 
national strategy, we must have a strong interior enforcement posture 
to deal with those that avoid arrest on the border. We do not feel that 
we have a strong interior enforcement program at the present time and 
the illegal alien population inside the United States is growing at an 
alarming rate. The true judge of the enforcement success of this agency 
will be the ``report card'' provided by the Census Bureau in the year 
2000. We believe that several congressional districts will be changed 
based on population shifts caused by large concentrations of illegal 
aliens in the interior of the United States.
                          enforcement structure
    In order to be successful we need an organizational structure that 
will enable us to focus on our enforcement mission of securing and 
protecting the borders of the United States from illegal entries. A 
well-managed border will enhance our national security and safeguard 
our immigration heritage while restoring our Nation's confidence in the 
integrity of the border.
    As you move forward with your work in the area of reorganizing the 
INS, we ask that you provide us with an organizational structure that 
will enable us to focus on a single mission of enforcing the 
immigration laws of the United States.
                                closing
    Mr. Chairman, and Members of the Subcommittee, the sector chiefs 
and the agents of the United States Border Patrol are proud to be 
serving their country and are proud to carry out the immigration laws 
that have been passed by members of congress.
    I thank you for allowing me the opportunity to appear before you 
today and I would be happy to answer any questions that you might have.

    Senator Abraham. Thank you very much, Chief.
    Representative Griffin, welcome.
    Ms. Griffin. Thank you.
    Senator Abraham. We will hear from you at this time.

                    STATEMENT OF MS. GRIFFIN

    Ms. Griffin. Thank you, Mr. Chairman and distinguished 
members of the subcommittee. Thank you for the opportunity to 
speak to you today about this important issue.
    I have the honor of representing District 8 which is the 
southeastern Arizona border that starts at Nogales and runs 
east to the New Mexico border. The majority of my district 
includes the Immigration and Naturalization Service, Tucson 
sector. The challenges and difficulties of illegal immigration 
has never involved such tremendous fear as the situation as it 
exists today. I share my constituents' frustrations as they 
continue to be overwhelmed with no end or solution in sight.
    The only analogy I can draw to describe the feelings is one 
of utter helplessness. You can only imagine placing a 911 
emergency call, only to be told there is no help available. The 
safety of the citizens of the United States, the enforcement of 
our laws, and the protection of our borders is a duty and 
obligation we cannot shirk.
    Officials from multiple levels of government are involved 
in the efforts to deal with this impending crisis. City, 
county, and State officials have reported tremendous strain on 
their law enforcement, medical services, and their criminal 
justice system. Our local law enforcement officials are unable 
to turn the tide of vandalism, theft, and increasing 
confrontations. The need for immediate intervention of Federal 
law enforcement is emergent.
    The result of border incursions have been an increased flow 
of illegal narcotics, trespassing, destructive vandalism, home 
invasions and thievery. It is any wonder that residents, and 
particularly those who live in the remote areas, are searching 
for other self-help methods to protect their families and their 
property. Many area ranchers are third and fourth generation 
Arizonans and are respectful stewards of the land. They well 
know and appreciate the benefits of our close relationship to 
Mexico and our Mexican brothers and sisters. My district 
includes one of the most culturally diverse regions in all of 
America, and we are proud of our heritage and respectful of our 
neighbors and responsibilities.
    I am also concerned for the safety of the illegal entrants 
who are attempting to cross the border to seek work and are 
simply trying to better their lives and are migrating to the 
United States with good intentions. If steps are not taken to 
stem this crisis, I am fearful many more will be wrongly 
encouraged to attempt this very dangerous trip in border 
crossing.
    Area ranchers and residents describe the siege mentality 
they are living under on a day-to-day basis. Things that we 
take for granted such as a trip with our spouse to town must be 
planned to allow one person to remain at home to protect 
personal belongings. Trash is strewn across fields as if a rock 
concert had been hosted the night before. Equipment, trucks, 
cars are stolen and destroyed and fences are cut. Livestock are 
stolen and killed. One rancher lost 13 cows in 1 year. They are 
shot, butchered and left to rot. Homes are broken into. 
Residents are afraid to go out at night. One rancher tells of 
being beaten almost to death by illegals. Residents are afraid 
to sleep. They are prisoners in their home.
    Committee members, my constituents are pleading for help. 
What are they to do? We do not know who is coming across the 
border. Are they dangerous? Are they criminals? Terrorists? Are 
they simply trying to better their life styles? Are they 
smuggling drugs or people? Do they need medical attention? Who 
are they?
    Several residents have asked why their Nation seems to be 
willing to protect others in the world before it protects its 
own. The Federal Government's actions suggest that citizens on 
or near the border are a lower priority than the international 
stories currently grabbing headlines. I believe their questions 
deserve answers. What are they to do? What are their rights?
    This is not just a local problem, a county problem, or an 
Arizona problem. It is a national problem. A recent newspaper 
article reported 1,000 illegal immigrants within 10 days were 
caught at the Phoenix airport with airline tickets to Chicago, 
Atlanta, and other destinations.
    Something must be done now. We must stop the illegal influx 
of individuals crossing our border. We must enforce existing 
laws and employer sanctions. We must put smugglers of drugs and 
people behind bars. We must consider and implement guest 
working visa programs, and we must increase resources on the 
border.
    Thank you once again for allowing me to testify, and thank 
you for your efforts to help our situation. Senator Kyl, thank 
you for bringing our--successfully communicating our needs in 
our area.
    [The prepared statement of Ms. Griffin follows:]

                 Prepared Statement of Ms. Gail Griffin

    Senator Abraham and distinguished members of the subcommittee, 
thank you for the opportunity to speak to you today on this important 
issue.
    I'm Gail Griffin. I have the honor of representing District 8, 
which is southeastern Arizona, it includes the southern border from 
Nogales and extends east to the New Mexico border. A majority of my 
district includes the Immigration and Naturalization Service's Tucson 
Sector.
    The challenges and difficulties of illegal immigration has never 
involved such tremendous fear than the situation as it exists today. I 
share my constituents' frustrations as they continue to be overwhelmed 
with no end or solution in sight. The only analogy I can draw to 
describe the feelings is one of utter helplessness. You can only 
imagine placing a 911 emergency call, only to be told there is no help 
available.
    The safety of the citizens of the United States, the enforcement of 
our laws, and the protection of our borders is a duty and obligation we 
can not shirk.
    Officials from multiple levels of government are involved in the 
efforts to deal with this impending crisis. City, county, and state 
officials have reported tremendous strain on law enforcement, medical 
services, and our criminal justice system. Our local law enforcement 
officials are unable to turn the tide of vandalism, theft, and 
increasing confrontations.
    The need for immediate intervention of federal law enforcement is 
emergent. The result of border incursions has been an increased flow of 
illegal narcotics, trespassing, destructive vandalism, home invasions, 
and thievery. Is it any wonder that residents, and particularly those 
who live in remote areas, are searching for other self-help methods to 
protect their families and their property?
    Many area ranchers are third and fourth generation Arizonans and 
are respectful stewards of the land. They well know and appreciate the 
benefits of our close relationship to our Mexican brothers and sisters. 
My district includes one of the most culturally diverse regions in all 
of America, and we are proud of our heritage and respectful of our 
neighbors and responsibilities.
    I am also concerned for the safety of the illegal entrants who are 
attempting to cross the border to seek work and are simply trying to 
better their lives and are migrating to the United States with good 
intentions. If steps are not taken to stem this crisis, I am fearful 
many more will be wrongly encouraged to attempt this very dangerous 
trip and border crossing.
    Area ranchers and residents describe the ``siege mentality'' they 
are living with under each and every day. Things that we all take for 
granted, such as a trip with our spouse to town, must be planned to 
allow for one person to remain at home to protect personal belongings. 
Trash is strewn across fields, as if a rock concert had been hosted the 
night before. Equipment, trucks, and cars are stolen or destroyed and 
fences are cut. Livestock is stolen or killed. One rancher lost 13 cows 
in one year. They were shot, butchered, and left to rot. Homes are 
broken into. Residents are afraid to go out at night. One rancher tells 
of being beaten almost to death by illegals. Residents are afraid to 
sleep. They are prisoners in their homes.
    Committee members, my constituents are pleading for help. What are 
they to do?
    I am awed by reports that the Tucson Sector set a record by 
apprehending 60,537 illegal immigrants in March of this year alone. 
Those numbers are nothing short of staggering. When a mass of six 
hundred illegal individuals recently attempted to move all at once 
across the border near Douglas, my constituents asked how they might be 
able to protect their families and homes if they were faced with a 
similar situation. Unfortunately with the limited law enforcement 
resources that currently exist in the area, there is little they could 
do.
    We don't know who is coming across the border. Are they dangerous? 
Are they criminals, terrorists? Are they simply trying to better their 
lifestyles. Are they smuggling drugs or people? Do they need medical 
attention? Who are they?
    Several residents have asked why their nation seems to be willing 
to protect others in the world before it protects its own citizens. The 
federal government's actions suggest that citizens on or near our 
borders are a lower priority than the international stories currently 
grabbing headlines. I believe their questions deserve answers. What are 
they to do? What are their rights?
    This is not just a local problem, a county problem, or an Arizona 
problem. This is a national problem. A recent newspaper article 
reported 1,000 illegal immigrants, within ten days, were caught at the 
Phoenix airport with airline tickets to Chicago, Atlanta, and other 
destinations. Something must be done, NOW!
    We must stop the illegal influx of individuals crossing our 
borders!
    We must enforce existing laws and employer sanctions!
    We must put smugglers of drugs and people behind bars!
    We must consider and implement guest working visa programs!
    We must increase resources on the border!
    Thank you once again for allowing me to testify and for your 
efforts on our behalf. Senator Kyl, thank you for successfully 
communicating our urgent call on this issue. I am happy to answer any 
questions. Thank you.

    Senator Abraham. Thank you very much.
    We are now joined by Mr. Robert Lindemann who is an agent 
in the Detroit office of the Border Patrol, and I want to 
welcome you here today and thank you for the hard work that you 
and your fellow agents do in our part of the world. We 
appreciate it very much and appreciate your time to be with us 
at this hearing.

                   STATEMENT OF MR. LINDEMANN

    Mr. Lindemann. Thank you, sir. As the Senator said, my name 
is Robert E. Lindemann, and I am steward for the National 
Border Patrol Council of the Detroit Local. I have been an 
agent for close to 15 years, and the Detroit sector Border 
Patrol covers over 800 miles of border and has enforcement 
responsibilities for four midwestern States. We do this or at 
least attempt to do it with no more than 19 field agents and 
one detention officer.
    Since 1988, we have continuously lost agents. Still, we 
continue to make more arrests. Right now, arrests are up over 
40 percent over last year at this time and keep in mind that 
for most of this fiscal year, we have had little or no 
detention or operations funding. Several years ago, the INS 
commissioner, Doris Meissner, laid out of 5-year strategic plan 
to control our borders and increase interior enforcement 
through resource enhancements allocated by Congress.
    The southwest border has received most of those resources. 
The response to the northern border was to slash operational 
and detention funding. Months ago, she offered northern sectors 
just 21 additional Border Patrol agent positions to help patrol 
over twice the amount of border than the southwest border 
occupies. Currently, the northern sectors have less than 289 
agents assigned to it, compared to over 7,000 in the southwest 
border.
    Since the INS has stepped up enforcement to the southwest 
border, arrests and drug seizures on the northern borders have 
increased. Conversely, our funding and manpower has decreased. 
Illegal alien street gangs are also a problem that has exploded 
in the last few years in the Detroit area. Lack of detention 
money allows illegal alien gang members to roam the cities and 
streets unchecked, and their numbers have increased.
    Patrol operations are sporadic and ineffective. Agents are 
often tied up doing detention work or on other details away 
from sector. This allows for only a handful of agents on duty 
at any given time. Frequently, agents have no backup and must 
rely on an antiquated radio system to call headquarters in 
emergent situations. This prospect is a gamble at most times, 
because our radio system covers little of our patrol area.
    When we do locate criminal or illegal aliens, they have to 
be released. The funding deficiencies also cause equipment that 
should have been replaced decades ago to remain in service. A 
recent request to replace nine older vehicles with excessive 
mileage was previously approved by INS headquarters. But only 
days after our union president testified before the House 
Immigration Claims Subcommittee regarding law enforcement 
problems in the northern border, funding was pulled and the 
request for replacement denied. Reason: other operational 
commitments.
    The bottom line is there are not enough agents or 
accompanying resources along the northern border that will 
provide any deterrent for anyone attempting illegal entry, 
contraband smuggling, or any criminal act. The INS proposal of 
adding 21 agents to the northern sector is laughable and 
insulting. A Detroit sector partnership study conducted a few 
months ago concluded that there was a need of 104 additional 
agents including critical support staff. This would afford 24-
hour protection at each of the five Detroit stations, Detroit 
sector stations.
    The U.S. Government has an obligation to provide for a safe 
and secure border. The United States, through its government, 
also has the right to determine its own immigration policy 
based on lawful, orderly, and proscribed procedures, not 
whenever anyone feels the urge to enter and for whatever 
reason, as is the case throughout our border regions.
    Part of this endeavor requires a vigilant border patrol. 
For the last several--for the past several decades, this notion 
has been flaunted by illegal immigrants, drug smugglers and 
other foreign criminal elements residing in the United States.
    I strongly urge the members of this committee to implore 
the INS to rethink their current strategy of border enforcement 
and immigration enforcement in general on the northern border. 
They should retain the funding that was given to them by 
Congress and carry out their mandate to make more secure our 
Nation's borders. We as citizens of this great nation deserve 
no less.
    Thank you, and if you have any questions, I will answer 
them as best as possible.
    [The prepared statement of Mr. Lindemann follows:]

               Prepared Statement of Robert E. Lindemann

    Good afternoon, I am Robert E. Lindemann, Steward for the National 
Border Patrol Council Detroit Sector Local 2499. I have been a Border 
Patrol Agent for close to 15 years now. I am also a member of the 
Border Patrol Tactical Unit. I want to thank Senator Abraham for 
inviting me here and for his national leadership on this issue.
                              introduction
    The Detroit Sector covers over 800 miles of border and has 
enforcement responsibilities for four mid-western states. We do this, 
or at least attempt it with no more than 19 field agents and 1 
detention officer. Since 1988 we have continuously lost agents; still 
we continue to make more arrests. Right now arrests are up 40 percent 
over last year at this time. Keep in mind that for most of this fiscal 
year, we have had little or no detention or operations funding.
                                response
    Several years ago the INS commissioner, Doris Meissner, laid out a 
5 year strategic plan to control our borders and increase interior 
enforcement through resources enhancement allocated by congress. The 
southwest border has received most of those resources. Her response to 
the northern border enforcement was to slash operational and detention 
funding. Months ago she offered northern sectors just 21 additional 
Border Patrol Agent positions to help patrol over twice the amount of 
border than the southwest border occupies. Currently, the northern 
sectors have less than 289 agents assigned to it, compared to over 
7,000 on the southwest border. Since the INS stepped up enforcement to 
our southwestern border, arrests and drug seizures on the northern 
borders have increased. Conversely our funding and manpower has 
decreased.
                  impact of reduced funding-personnel
    Recent budget cuts and reductions in manpower to the Detroit Sector 
over the last decade have negatively impacted patrol operations and 
trashed the morale of local personnel. Response times to police and 
citizen complaints regarding illegal aliens or criminal aliens have 
increased or gone unanswered. Aliens who were once detained and 
deported, now have to be released. Why? Because there is no money--nor 
is there any nearby INS detention facility. For example, just a week 
ago USBP Grand Rapids Station had to release two Mexican nationals whom 
were arrested and convicted of drug smuggling. The reason--No Money. It 
was all taken away in late December 1998. Illegal alien street gangs 
are also a problem that has exploded in the last few years in the 
Detroit area. Lack of detention money allows illegal alien gang members 
to roam city streets unchecked and their numbers have increased.
                           patrol operations
    Patrol operations are sporadic and ineffective. Agents are often 
tied up doing detention work or on other details away from sector. This 
allows for only a handful of agents on duty at any given time. Often 
times and at night, there are only 2 agents on duty sector wide. 
Frequently agents have no back up and must rely on an antiquated radio 
system to call headquarters in emergent situations--this prospect is a 
gamble most times because our radio system covers little of our patrol 
area. Furthermore, it is physically impossible for 19 agents to patrol 
804 miles of border and simultaneously respond to police or citizen 
reports of illegal aliens or other crimes.
    When we do locate criminal aliens as was the case only weeks ago 
they have to be released. Only days ago Patrol Agents located two alien 
aggravated felons. These aliens were considered an extreme risk to our 
communities and once arrested should have been detained without bond 
according to statute. Instead they were left free to roam the country. 
The reason--the local INS Deportations Branch had no money to detain 
them. This serious lapse occurred as of Friday April 23, 1999.
                           outdated equipment
    Funding deficiencies also cause equipment that should have been 
replaced decades ago to remain in service. A recent request to replace 
9 older vehicles with excessive mileage was previously approved by INS 
Headquarters, but only days after our Union president testified before 
the House Immigration & Claims Subcommittee, regarding law enforcement 
problems on northern border, funding was pulled and request for 
replacement denied. Reason: other operational commitments.
    Reduced funding also impacts other resources such as, 
communications and intrusion alarms. These systems are decades old and 
rarely work or are unreliable when they do. Most all Southwest Border 
Patrol sectors are on 3rd generation radios and enhanced communications 
systems, we rely on repeater systems put up in the mid 1970's. Our 
radios range from 10 to 20 years in age.
    For example our radio repeater system, if we are lucky and 
conditions are perfect, affords us radio coverage in about a quarter of 
our sector. Generally it is only operational in the Detroit area. This 
is a serious officer safety problem for our lives depend on dependable 
two-way communications. It has been this way for decades and we only 
now have recent indications that INS will survey the problem for later 
repair-date unknown.
    Our sensor systems are decades old technology and unreliable at 
best in their current configuration they should have been upgraded 
years ago. That may be a moot point due to manpower limitations--timely 
responses to intrusions are impossible with current staffing.
                         retention of employees
    One of the more recent problems with attracting and retaining 
agents has been entry-level and the journeyman grade. The entry-level 
grade, GS-5, which is about $23,000 per year for a college graduate. 
Most Police departments and Federal agencies start prospective officers 
at a much higher rate. The majority of Border Patrol Agents are GS-9, 
less than 50 percent are GS-11 grade. We have received a large number 
of college graduates in the last 5 years and many leave and go to other 
agencies that have journeymen grade levels set at GS-12 and GS-13. How 
can we compete with that? We can not.
    We are a patrol agency but the work we do certainly should qualify 
us for GS-11 grade pay. We boast the toughest academy and post academy 
training of all federal agencies. We are the only federal agency that 
requires a second language as well as law and language exams during our 
probationary year. Failure of these exams means termination. Many other 
agencies offer GS-12 level journeymen grades with no subsequent testing 
after academy completion. This issue will have to be addressed or 
attrition will continue.
                     potential threats from abroad
    As a matter of fact, the Canadian government has more relaxed 
immigration policy than the US; this affords citizens from many 
countries to enter Canada with nothing more than a passport. A new 
trend currently being seen on the northern border is the illegal entry 
from Canada into the US by Mexicans. Under NAFTA, Mexicans no longer 
are required a visa to enter Canada, simply a Mexican passport.
    Just over 2 weeks ago, two Mexican nationals were arrested by BP 
Agents entering the United States near Detroit from Canada. They stated 
that due to increased enforcement efforts by USBP on the Southwest 
border, it was much easier, less costly to enter Canada by commercial 
aircraft and later enter the United States across the Northern Border. 
They also stated that the word on the street in Mexico that BP presence 
on the Northern Border was small and that nobody was being sent back or 
detained. They were right. After a short interview and processing both 
were released with no bond posted. No forwarding address was recorded. 
They were instructed to show up for their immigration hearing and they 
laughed as they walked out of the station. As pressure increases on the 
Southwest border we can only expect a flood of illicit activities along 
our northern border.
    Also they would be required to sign a form stating they would abide 
by US laws while awaiting trial. This may sound like an extreme 
example, but it is what's happening on a daily basis in the Detroit 
Sector when other aliens are arrested. I'm sure it occurs in other 
northern border patrol sectors as well.
                               conclusion
    The bottom line is there are not enough agents or accompanying 
resources along the northern border that would provide any deterrent 
for anyone attempting illegal entry, contraband smuggling or any 
criminal act. The INS proposal of adding 21 agents to northern sectors 
is laughable and insulting. A Detroit Sector partnership study 
conducted a few months ago concluded that there was a need of 104 
additional agents, not including critical support staff. This would 
afford 24 hour protection at each of the 5 Detroit Sector stations. 
They should also be planning for and building more detention facilities 
to relieve local law enforcement from the burden of caring for 
incarcerated aliens and relieving the taxpayers from the expense of 
renting space at high prices for detaining these same aliens at state 
and local facilities.
    The US Government has an obligation to provide for safe and secure 
borders. The United States through its government also has the right to 
determine its own immigration policy based on lawful, orderly and 
proscribed procedures, not when ever any one feels the urge to enter 
and for whatever reason as is the case throughout our border regions. 
Part of this endeavor requires a vigilant Border Patrol. For the past 
several decades this notion has been flaunted by illegal immigrants, 
drug smugglers and other foreign criminal elements residing in the US.
    I strongly urge the members of the committee to implore the INS to 
rethink their current strategy of border enforcement and immigration 
enforcement in general on the northern border. They should retain the 
funding that was given to them by Congress and carry out their mandate 
to make more secure our nations borders. We as citizens of this great 
nation deserve no less! Thank you and if the committee has any 
questions for me I will answer them as best as possible.

    Senator Abraham. Thanks very much, Mr. Lindemann.
    Well, let me just begin.
    Mr. Sanders, Chief Sanders, you indicated that you believe 
that a force of approximately 20,000 is really the level that 
it will take to make a significant impact on the reduction of 
illegal immigrants; is that correct?
    Mr. Sanders. Yes, sir, that is correct.
    Senator Abraham. So as I calculate it here, that means we 
need to add somewhere in the vicinity of between 11,000 to 
12,000 to the border patrol from what we currently have at 
current levels. And I was just doing a little calculation. At 
the rate of 200 per year, it will take 55 years for us to have 
the number that you require.
    So here is my question. What do you think we can do? And I 
will also ask Agent Lindemann the same. What can we do? What 
other ideas beyond addressing the pay issue? Do you really feel 
that it is going to be that difficult to find people to meet 
your needs? Because that seems to be a problem. What 
recommendations do you have to address the short fall?
    Mr. Sanders. In October of last year, the patrol agents met 
with Commissioner Meissner in Denver at her conference there, 
and we told her we believed that we had a serious problem in 
recruiting. We could tell from the individuals that were 
entering on duty. Our classes were not full. Notification was 
not being received in sufficient time. Some agents were only--
some new hires were only getting 2 days notice before they 
reported in. All these things presented problems.
    As time has gone on, we believe that one of the best 
solutions is to turn the recruiting over to the Border Patrol. 
Get it out of human resources. Let us do our recruiting. We 
have a system now that where the Office of Personnel Management 
is very much involved in the recruiting. This would be similar 
if the Office of Personnel Management recruiting for the army, 
for example. As you know, the army has their own recruiting. 
They are responsible for their own recruiting. I think we need 
to do that. I think the agency is finally coming around and 
realizing that we would be the best recruiters and not the 
Human Resources Department.
    Senator Abraham. So, No. 1, you think that it would be 
helpful for the Border Patrol to recruit its own, handle 
recruitment or oversee it itself?
    Mr. Sanders. Yes, sir.
    Senator Abraham. What else?
    Mr. Sanders. The pay issue. I laughed when we talked about 
the GS-11 issue. I left the Border Patrol in 1975 because we 
were promised a GS-11. It is kind of like your scenario of 
taking 55 years. So many of us left at that time. Twenty-some 
years have passed, and we are still talking about the same 
thing.
    We meet on a regular basis with Mr. de la Vina and Mr. 
Pearson, and about 4 times a year with Commissioner Meissner. 
We repeatedly stated that the Border Patrol from the chief 
patrol agents on down are the most undergraded agents in the 
Federal Government. It is just that simple.
    The position descriptions have not been rewritten. We have 
requested that they look at the chief patrol agents positions. 
Many of those, including Detroit--the chief in Detroit is a 
much lower level than his counter parts with the FBI, the 
Customs, and so on. This has been going on for 3 years, and we 
have seen very little movement in that regard. So we have 
offered to help rewrite those position descriptions, but once 
again, we must work through Human Resources, and it is very, 
very time consuming.
    Senator Abraham. I am not going to ask you to go through 
everything, but I would ask you, perhaps in writing, to supply 
us with a comprehensive list of recommendations that you and 
your colleagues would have as to things that would help to beef 
up the service to meet the authorizations that we have agreed 
to.
    Mr. Lindemann, do you want to add anything to that?
    Mr. Lindemann. Yes, sir. Specifically, it is the pay grade. 
People with college degrees and prior military are coming on 
board, hired at GS-5, and they have only a hope of becoming a 
GS-11. I think 20 percent of the U.S. Border agents are GS-11 
patrolmen. The remainder are GS-9, and these guys are, you 
know, 2 to 3, 4 years in a border sweating like, you know, 
never before, working hard every day. They are looking at FBI, 
DEA, and ATF, and their agents are almost automatically given--
not given. They earn it--GS-12 and GS-13 grades for their 
journeyman level, and that, by and large, is our biggest 
impediment to retaining people.
    Senator Abraham. And you are losing--I mean the attrition 
we heard about, which I know is accurate, you are losing them 
to other law enforcement agencies right in the Federal 
Government. Is this basically what you are saying happens?
    Mr. Sanders. Yes, sir. I have lost 55 individuals since 
October 1, and a majority of those have gone to other agencies, 
Secret Service, ATF, FBI. They love to hire our people. They 
are trained in two languages. They have a very extensive 
academy, some 26 weeks of very intense training. So we make 
good recruits for them.
    Senator Abraham. Mr. Lindemann, let us go over the numbers 
again for Detroit.
    Mr. Lindemann. Yes, sir.
    Senator Abraham. Exactly how many agents sign to the 
Detroit region?
    Mr. Lindemann. We have 19 field agents in the Detroit 
sector and one detention officer.
    Senator Abraham. Tell us how large that sector is again.
    Mr. Lindemann. We cover--we have interior responsibilities 
to four States and about 800 miles of border, and that is 
spread out--and those 19 agents are spread out through five 
stations. So we are just unable to mount any serious 
enforcement effort almost at any given time. It is impossible 
with one or two agents on duty in a car, working the City of 
Detroit, for example, which I am familiar with. We get a call 
or a alarm intrusion, and traffic is so heavy by the time we 
get there, everything is over with.
    Senator Abraham. It is a small city. It is only about a 
million people.
    Mr. Lindemann. Exactly. Exactly.
    Senator Abraham. Two of you ought to be able to handle it. 
I can imagine.
    Obviously, you want more.
    You indicated some numbers that seemed to be the kind of 
level to provide the sort of support you need. Would you go 
over those again?
    Mr. Lindemann. Yes, sir. A joint partnership with the union 
and our local management with Chief McLafferty recommended or 
concluded that we have at least 104, and that, I do not 
believe, includes support personnel. Again, with one detention 
officer, you can only do so much, and he has got to drive 
across the state constantly picking up prisoners, and because 
there is one of him, we normally end up doing those duties as 
well, taking away from the time that we actually spend doing 
enforcement activities.
    Senator Abraham. So the number has--so we are 85 short 
based on what you have calculated?
    Mr. Lindemann. Yes, sir.
    Senator Abraham. And given that very few of the new agents 
get assigned there, again, we are talking about a very 
significant shortfall, essentially, for as far as the eye can 
see.
    You also mentioned that there are other impediments such as 
antiquated equipment, things of that sort that have made it 
much harder to perform your duties; is that right?
    Mr. Lindemann. Yes, sir. Our radio system, for example, 
works in probably a quarter of our area, and that is usually 
only in the City of Detroit. We have one repeater that services 
like--you know, like a 65-square-mile area, and sometimes you 
can hit it, and sometimes you cannot. It is not uncommon to be 
chasing somebody on foot, and you cannot get out on the radio. 
You know, you cannot talk to headquarters on the radio. You 
cannot call backup. Fortunately the City of Detroit has 
provided us with City of Detroit radios to provide assistance 
to us.
    Senator Abraham. Would you say that this is--I mean, you 
probably know people in the other northern border sectors. Is 
this the same basic challenge they all have?
    Mr. Lindemann. Identical. Identical. Manpower, lack of 
radio coverage, lack of vehicles, lack of--no detention 
officers. In Detroit, we have no INS detention facility. We 
have to rely on local law enforcement to lodge our prisoners at 
an exorbitant rate, and so in turn, we arrest them. We give 
them a piece of paper, and they walk out the door because there 
is no money, and that happens every day.
    Senator Abraham. I would just say for the record that we 
have requested information on detention needs as well, and I 
hope that we will get a little bit more thorough information 
from INS as to their needs. Again, I think this is an area 
where Congress would be willing, if we were given a sense of 
needs more specifically than we have so far, not only for the 
detention of people apprehended but for the detention of 
criminal aliens who are incarcerated to be detained for 
purposes of having deportation proceedings conducted.
    We still cannot get all the information we need there, and 
I know there are people from INS here today, and I would urge 
them to send back the message that it is all part of the same 
concern we have, and the needs that we have have not changed on 
that front.
    I have gone over my time. So I will turn to Senator Kyl.
    Senator Kyl. Well, thank you, Mr. Chairman. Your 
questioning has just brought out so many important things, the 
needs both on the northern and southern borders, some good 
suggestions that I hope we will get; and by the way, if there 
is any hint of retribution from either of the two of you, I 
hope you will let the two of us know, because it is against the 
law, and we will see to it that the situation is resolved 
properly.
    I have one question, Chief Sanders, of you. Is it true that 
the estimates based on footprints, infrared technology, and 
other techniques suggest that approximately three illegal 
aliens get away for every one that is caught or apprehended; is 
that correct?
    Mr. Sanders. Yes, sir, that is true.
    Senator Kyl. So at 1.6 million apprehended in the Tucson 
sector. If you multiply by three, that is a 4.8 million were 
not apprehended; is that correct?
    Mr. Sanders. Yes, sir.
    Senator Kyl. That just gives you a little bit of an idea of 
the order of magnitude. This is for one sector now in 1 year.
    Gail Griffin, I wanted to perhaps add two points that are, 
I think, very important to make for the record, and Chief 
Sanders, I think will bear us out on both of these.
    One of the concerns that you raised was the fact that there 
is a significant danger to the people attempting to cross, as 
well as to some of the America citizens. It is my understanding 
that during the hot summer months, some of these agents, in 
short supply to begin with, are deployed to the remote, hot 
desert areas of our border--the Barry Goldwater Gunnery Range, 
where our pilots practice gunnery. There is nothing much there, 
and there is certainly not any water there--for the sole 
purpose of saving lives of illegal immigrants who choose to 
avoid the urban areas and therefore cross the desert, and that 
each year there are numerous illegal aliens who die and many 
more that are saved by those agents. Is that your 
understanding?
    Ms. Griffin. Yes, in fact, a couple of weeks ago the 
headlines in the paper was ``Baby Born in Desert''.
    Senator Kyl. And Chief, I am catching you off guard here, 
but any idea of the number of people who die per year?
    Mr. Sanders. In Arizona, the statistics that we have, it is 
approximately 30, and we consider ourself to be very fortunate, 
because nationwide during that same period of time, it was 
probably in a 3-year period, somewhere over 500. By expanding 
those patrols into that remote desert area, we have been very 
successful, but we have to take coverage from other places to 
save those human lives.
    Senator Kyl. That is exactly the point I was going to make. 
In order to save the lives, you have to then degrade your 
performance in other areas. Also, I know in the City of Nogales 
where you first put the agents, there was a huge crime rate, 
and I know, Representative Griffin, you made the point that not 
all, by any means--in fact, only a minority of the people 
crossing the border are criminal. The rest are simply seeking a 
better opportunity.
    But there are criminals within them, and I think, Chief 
Sanders, you would agree that there is an increasingly 
dangerous criminal element, more weapons used, more protection 
of the drugs that are being smuggled across, but my 
recollection is that you told me that once you got a pretty 
good tranche of agents on the ground in Nogales, the crime rate 
plummeted. I know the people in the community stopped 
complaining to me about both the petty theft, the burglary, and 
the assaults that they were experiencing, the break-ins and so 
on, and the situation there has calmed down significantly, 
again making the point that Chief de la Vina made, which is 
that once you get the application of agents on the border, you 
can reduce crime as well as make apprehensions significantly; 
is that correct?
    Mr. Sanders. Yes, sir. I would like to point out that we 
successfully prosecuted 3,500 individuals in Arizona last year 
for committing crimes, and it is important to realize that the 
U.S. attorneys in the state of Arizona prosecuted 7,000. So the 
U.S. Border Patrol provided half of the criminals that they 
prosecuted.
    So when we talk about an enforcement strategy, we need to 
talk about prosecutors. We need to talk about U.S. Marshals, 
and we need to talk about bed space. It is a total package. 
What we do in the Border Patrol as our arrests go up, it 
creates problems for those other agencies.
    Senator Kyl. Mr. Chairman, that is a very good point. I am 
glad Chief Sanders made it. The U.S. Attorney for Arizona, Jose 
Jesus Rivera, was in my office last week. He is going to be 
there again this week talking about this exact problem. When 
you increase the number of agents, then, of course, you need to 
increase the number of prosecutors, public defenders, 
magistrates, judges, jail space, vehicles, all up and down the 
line. It is not just one matter.
    And then a final point, I know that, Representative 
Griffin, you are also carrying a message from some of the 
residents including one of the mayors of one of the communities 
you represent, urging a greater use of the H-2 programs or a 
more liberalized H-2 program; is that correct?
    Ms. Griffin. The guest visa work program?
    Senator Kyl. Yes.
    Ms. Griffin. Yes.
    Senator Kyl. And I would note to the chairman, last year 
Congress responded to a specific need for high-technology guest 
workers, people who could program computers and the like, and 
we increased substantially the number of people that could come 
into the country for that purpose. I think that the need for 
unskilled labor ought to also be addressed so that we could at 
least provide a safe environment for some of the people who 
seek to come across, and I hope that that issue is not 
forgotten in this overall discussion as well, Mr. Chairman.
    And I am already late for another meeting, and I have got 
to run, but I want to personally thank Representative Griffin 
for being here and also Chief Sanders.
    And Mr. Lindemann, I am with you too. I guess when you have 
got a patient who has got a broken leg and is bleeding to 
death, you try to stanch the bleeding, but you have got to take 
care of the broken leg too.
    Mr. Lindemann. Eventually.
    Senator Kyl. I mean relatively speaking, it is as bad on 
the northern border as it is on the southern.
    Thank you, Mr. Chairman.
    Senator Abraham. Senator Kyl, as I said at the outset, we 
need to keep these issues on the front burner of our 
subcommittee, and clearly we intend to keep them there. I think 
the last comments that were made go, again, to some of the 
things I was trying the suggest earlier, which is we really do 
need to get a broader, not a nearer focus on impediments, 
because I do not want 6 months from now, if we started 
increasing the numbers, to be told, well, now the problem is 
U.S. attorneys or anything else. We want to know what all the 
challenges are because I think there is a real desire to try to 
address them, and certainly that goes for the northern border 
as much as it is for the chief hot spots that we confront.
    I want to thank everybody on the panel and our audience for 
being with us. We are trying to be constructive here, and I 
emphasize that. So we want to certainly work with INS and with 
all the affected agencies to address these problems, but we are 
going to spend a lot of time in this Congress figuring out what 
we can do to try to make some progress.
    Thank you very much. The hearing is adjourned.
    [Whereupon, at 3:59 p.m., the hearing was adjourned.]
                            A P P E N D I X

                              ----------                              


                 Additional Submissions for the Record

                              ----------                              


                                      Board of Supervisors,
                             County of Cochise, AZ, April 26, 1999.
Re: Undocumented Aliens on Cochise County/Republic of Mexico Border

Senator Spencer Abraham and Committee Members,
Chairman, Senate Judiciary Subcommittee on Immigration,
U.S. Senate, Dirksen Senate Office Building,
Washington, DC.
    Dear Senator Abraham and Committee Members: Cochise County is under 
siege. With approximately 80 miles of boundary with the Republic of 
Mexico, Cochise County is experiencing the impacts of thousands of 
undocumented aliens, primarily from Mexico, Central and South America, 
who are crossing the Mexican border into Arizona each month. In fact, 
Border Patrol statistics show that there are approximately 30,000 
apprehensions in Cochise County each month. If this statistic 
represents only the number of persons apprehended, imagine how many 
persons are illegally crossing the border without being detected. 
Consider the magnitude of this invasion--as many people are being 
detained each month as live in a medium sized city.
    It would be one thing if these persons came in an orderly manner 
and proceeded to a destination where they can legally work. They are 
instead led by ``mules'' at all hours of the day and night at many 
points along the border. They are scared and hungry and desperate. They 
destroy fence lines, enter onto ranches and other private property 
looking for food. They litter their paths with garbage and debris, 
which is then left for the property owner to remove. Cattle are 
slaughtered to provide a small amount of food for undocumented persons 
passing through, and the carcasses are left to rot. Other livestock die 
from eating diapers and other debris left by these persons. A number of 
them commit property crimes as they travel through the area. Illegal 
drug traffic takes place along that same border, and that activity 
poses tremendous safety risks for our residents. Cochise County is no 
longer a safe place for its residents. Families are hostages on their 
own property. They fear leaving their property unattended lest they 
return to find their houses broken into and property taken.
    The Federal Government has the responsibility to protect its 
citizens from invasions of its borders. Its policies of tightening 
security along other reaches of the border have funneled this level of 
activity into Cochise County. Local law enforcement, with approximately 
77 deputies to patrol 6,200 square miles of area, is ill-equipped to 
stop this invasion. They have their hands full providing the normal 
range of law enforcement activities for its citizens. Our jail houses a 
substantial number of undocumented aliens who commit crimes in Cochise 
County, and only partial reimbursement is received. Our court system 
also bears the pressure of these international activities. In addition, 
there are substantial public health costs faced by border counties. The 
responsibility is the Federal Government's, and, at least in Cochise 
County, it has not been met to date.
    A disturbing trend is occurring, and you need to be aware of it. 
The frustration level of American citizens in Cochise County is 
increasing substantially. Citizens want to know what they can do to 
protect themselves. The potential for conflict is increasing 
dramatically, and if nothing is done soon, there is a strong likelihood 
of violence. If our Government is not going to protect the people, then 
vigilantism will grow and people will take steps to protect themselves. 
Do you really want this in the United States of America?
    Something must be done and done immediately. Your committee must 
take the first steps to provide adequate security for this area. We 
strongly encourage you to pass legislation and appropriate adequate 
funds to add appropriate security along the Cochise County border.
    While we support this funding to provide for the short-term 
security of our residents, we also encourage you to look for longer-
range solutions to the problems of immigration. Otherwise, persons from 
poorer nations who do not have jobs will find a way to get into the 
United States. We would ask you to also contemplate programs to allow 
for limited, lawful work status for aliens and tougher enforcement of 
laws against United States employers who hire undocumented aliens.
    Again, in closing, on behalf of the residents of Cochise County, 
please take immediate steps to provide funding to address this crisis.
            Sincerely,
                                              Les Thompson,
                     Chairman, Cochise County Board of Supervisors.

[GRAPHIC] [TIFF OMITTED] T3522.004

[GRAPHIC] [TIFF OMITTED] T3522.005

[GRAPHIC] [TIFF OMITTED] T3522.006

[GRAPHIC] [TIFF OMITTED] T3522.007

[GRAPHIC] [TIFF OMITTED] T3522.008

                                <greek-d>
                                   <ALL>
</pre></body></html>
